<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  .                                   
                         [H.A.S.C. No. 115-79]

           THE F-35 JOINT STRIKE FIGHTER LIGHTNING II PROGRAM

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 7, 2018

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-417                        WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        NIKI TSONGAS, Massachusetts
PAUL COOK, California, Vice Chair    JAMES R. LANGEVIN, Rhode Island
SAM GRAVES, Missouri                 JIM COOPER, Tennessee
MARTHA McSALLY, Arizona              MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
TRENT KELLY, Mississippi             JACKY ROSEN, Nevada
MATT GAETZ, Florida                  SALUD O. CARBAJAL, California
DON BACON, Nebraska                  ANTHONY G. BROWN, Maryland
JIM BANKS, Indiana                   TOM O'HALLERAN, Arizona
WALTER B. JONES, North Carolina      THOMAS R. SUOZZI, New York
ROB BISHOP, Utah                     JIMMY PANETTA, California
ROBERT J. WITTMAN, Virginia
MO BROOKS, Alabama
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Conn, RADM Scott D., USN, Director, Air Warfare (OPNAV N98), 
  Office of the Chief of Naval Operations........................    11
Harris, Lt Gen Jerry D., USAF, Deputy Chief of Staff for Plans, 
  Programs, and Requirements, Headquarters U.S. Air Force........    12
Rudder, LtGen Steven R., USMC, Deputy Commandant for Aviation, 
  Headquarters U.S. Marine Corps.................................     9
Winter, VADM Mathias W., USN, Program Executive Officer, F-35 
  Joint Program Office, Office of the Secretary of Defense.......     5

                                APPENDIX

Prepared Statements:

    Conn, RADM Scott D...........................................    77
    Harris, Lt Gen Jerry D.......................................    85
    Rudder, LtGen Steven R.......................................    67
    Turner, Hon. Michael R.......................................    35
    Winter, VADM Mathias W.......................................    38

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Gaetz....................................................    99

Questions Submitted by Members Post Hearing:

    Mr. Bacon....................................................   107
    Ms. Rosen....................................................   106
    Ms. Tsongas..................................................   106
    Mr. Turner...................................................   103
           
           
           THE F-35 JOINT STRIKE FIGHTER LIGHTNING II PROGRAM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                          Washington, DC, Wednesday, March 7, 2018.
    The subcommittee met, pursuant to notice, at 2:05 p.m. in 
room 2212, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The committee will come to order. The 
subcommittee meets today to receive testimony on an update to 
the F-35 Joint Strike Fighter [JSF] program, and integrating 
fifth-generation tactical fighter capabilities into the 
services' fighter fleets.
    I want to welcome our witnesses for today's panel. We have 
Vice Admiral Mat Winter, the Director of the F-35 Joint Program 
Office [JPO]; Lieutenant General Steven Rudder, Deputy 
Commandant of Aviation for the United States Marine Corps; Rear 
Admiral Scott Conn, Director of Air Warfare for the United 
States Navy; and Lieutenant General Jerry Harris, Deputy Chief 
of Staff of the Air Force for Plans, Programs, and 
Requirements.
    Gentlemen, thank you for being here, and thank you for your 
service.
    This year marks the beginning of an important transition 
for the F-35 program. After 17 years of development and 
engineering activities, the F-35 will complete its baseline 
development program by May of this year, and then enter into an 
operational test period this September to assess and validate 
if each variant of the F-35 provides the capabilities needed to 
meet operational requirements defined by each of the military 
services before us today.
    F-35 acquisition is still increasing, but still not to the 
level the services require. Last year, the Department of 
Defense [DOD] requested 70 F-35s. This year the request is for 
77, with plans for the services [to] budget for 99 aircraft per 
year by 2023.
    Procurement costs for F-35s are steadily declining. Last 
year, negotiated costs for the three F-35 variants were over 6 
percent lower than the previous year. Hopefully, projections 
for actual costs continue the recent trend of coming in below 
the program office's estimates.
    Last year marked several notable accomplishments for the F-
35 program. Among them, all developmental weapon testings was--
were completed; the final version of the Block 3F software was 
provided to some of the fleet; and the 66 F-35s were delivered 
to the U.S. services. Additionally, F-35 deliveries were made 
to Italy, Norway, Israel, Australia, and Japan.
    But the F-35 program continues to face challenges ahead. In 
addition to beginning operational testing, this year also marks 
a transition from initial development activities to follow-on 
development, which has become known as continuous capacity 
development and delivery, or C2D2.
    While the goal of C2D2 methodology is designed to deliver 
continuous modernization to the warfighter in smaller 
increments and an expedited timeline, the recent Director of 
Operational Test and Evaluation's [DOT&E] report to Congress 
questioned whether or not the C2D2 program is properly 
resourced, and whether the testing community will be provided 
sufficient test aircraft built at a current production 
configuration to perform and validate future capabilities.
    In terms of oversight, this subcommittee has always had 
affordability at the forefront of its F-35 oversight 
activities. To supplement our F-35 oversight activities, the 
subcommittee included a provision in the fiscal year [FY] 2017 
National Defense Authorization Act [NDAA] that required the 
Government Accountability Office, or GAO, to review the F-35 
sustainment support structure and provide Congress its findings 
in subsequent recommendations to address affordability issues. 
We look forward to those.
    I am sorry, we actually--the GAO's report released in 
September of last year noted that the F-35 program is facing 
key sustainment challenges that include repair capacity at 
depots; spare part shortages compounded by insufficient 
reliability of various parts and components; unfunded 
intermediate-level maintenance capabilities; and delays in 
development of the computer and network-based Automatic 
Logistics Information System, known as ALIS. We look forward to 
GAO's continued review of those issues.
    To address these issues, we understand that the F-35 
program in the past year has executed $114 million of fast-
track in standing up depots, made investments in reliability 
and maintainability improvement projects, and obligated $1.4 
billion to increase spare parts purchases, and also built up 
repair capacity and improved the speed of repairs.
    The F-35 program office has also developed a 5-year 
technical road map for ALIS to address future requirements. 
ALIS, in its current state, is not user-friendly, and has 
caused the services' maintenance personnel to create burdensome 
manual tracking processes and insufficient--and inefficient 
workloads. We have not only received testimony about that, I 
know a lot of our members have traveled to sites and spoken to 
them, the personnel, directly. And they continue to relate to 
us the difficulty with ALIS.
    More troubling, each service continues to rely heavily upon 
contractor-provided information technology experts to 
manipulate ALIS's intricate software and complex databases, 
because the ALIS system still does not meet contractual 
capability requirements that would enable our personnel within 
each service to independently operate and input data into ALIS.
    As much attention and effort that was being paid to getting 
F-35 development and procurement costs to a reasonable level, 
this same level of effort and attention now needs to apply to 
ALIS and its functionality. Despite these efforts, the three 
services operating the F-35 are--still share a critical concern 
about rising F-35 operations and support [O&S] costs affecting 
affordability. We understand the F-35 program needs to reduce 
F-35 operations and support costs by about one-third to meet 
service budget goals for affordability. Otherwise, end-state 
quantity goals for each service could be dramatically impacted.
    The higher-than-desired operations and support costs, 
compounded with the parts and depot issues I mentioned earlier, 
are already beginning to manifest with the services' hesitation 
to increase procurement rates beyond current levels until the 
F-35's glide path to affordability trends in the desired 
directions.
    But increasing production is also how we lower production 
costs. For the Tactical Air and Land Forces Subcommittee, our 
actions will be to continue close oversight of the F-35 
program, and to continue to provide the Department the tools 
and resources necessary to realize F-35 affordability.
    The capabilities the F-35 brings to the battlefield against 
advanced threats are desperately needed to make the goals and 
objectives of our new defense strategy and that of our foreign 
partners invested in the program a reality. We, with our 
foreign partners, absolutely cannot risk the F-35 program 
meeting a similar fate of the F-22 program, where we were not 
able to procure and field sufficient capacity to meet combat 
commander warfighter requirements.
    Gentlemen, I look forward to your testimony on how we can 
meet these and other future challenges in the F-35 program.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 35.]
    Mr. Turner. And I will now turn to my colleague, Niki 
Tsongas.

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman, and good afternoon. I 
would like to thank our witnesses for being here today to 
discuss the F-35 Joint Strike Fighter.
    The F-35 program has come a long way in the 10 years I have 
served on this committee, and important capabilities are 
finally being delivered to Air Force, Marine Corps, and Navy. 
And while the program has had dramatic cost growth and schedule 
delays since its inception in 2001, over the past 5 years its 
cost and schedule have been relatively stable.
    When I look at the F-35 program, I see four major aspects 
to the program, each with its own achievements and challenges.
    First, in the area of production and delivery of aircraft, 
the program is generally meeting delivery timelines and cost 
reduction goals. For each of the last four lots of aircraft, 
final negotiated costs have been lower than what was projected 
in the budget request for those years. Given the scale and 
complexity of the program, this is a significant achievement.
    A second aspect of the program is completion of a 17-year 
system development and demonstration phase, which is expected 
to occur in a few months. While completion of this almost two-
decade-long effort is certainly welcome, according to the Joint 
Program Office, more than 200 software and other deficiencies 
will not be fixed by the time this phase officially ends. In 
addition, critical supporting infrastructure, including 
activities that produce vital threat information, logistic 
support software, and simulators for the F-35 remain immature 
and behind schedule.
    It is important to note that the government already paid 
for these deficient and lagging capabilities once, and that the 
contractors failed to deliver. It is now important that the 
government be compensated for these shortfalls in the future.
    A third aspect of the program is a cost to operate and 
maintain the F-35, often referred to as sustainment. Now that 
large number--now that large numbers of aircraft are actually 
entering service, all three military services operating the F-
35 are expressing great concern about the cost to operate the 
aircraft. In public statements and discussions with the 
committee, senior DOD officials have expressed these same 
concerns. The F-35 was designed to be ``affordable stealth.'' 
So I look forward to hearing about how we get there.
    A fourth element of the program is the tremendous amount of 
work and cost ahead in the area of follow-on development. 
Previously called Block 4, and recently renamed continuous 
capability development and delivery, or C2D2. This follow-on 
effort to improve the capability of the F-35, mostly through 
software upgrades, is needed to keep up with the latest 
threats. However, the cost of this effort has been exceedingly 
difficult for Congress to nail down over the past several 
years.
    Through the National Defense Authorization Act for Fiscal 
Year 2017, Congress required the Secretary of Defense, as a 
precondition for moving forward with this part of the F-35 
program, to provide a detailed cost estimate for this effort. 
Unfortunately, the report provided to Congress this past 
January in response to this legislation did not provide the 
required information. And despite clearly not meeting Congress' 
demands for information, the C2D2 program is moving ahead as we 
speak.
    However, we do have some idea of the potential cost of the 
effort. And subsequent information provided at the request of 
the committee by--and the information provided by the Joint 
Program Office to the committee, it appears the cost between 
fiscal year 2018 and fiscal year 2024 to achieve all the 
requirements for the C2D2 program may be as high as $11 billion 
in development and $5.4 billion in procurement. This potential 
cost of $16 billion is an astonishingly high amount and, as far 
as I am aware, greatly exceeds any cost figures previously 
provided to Congress.
    Furthermore, the DOD's position remains that it wants to 
run this $16 billion development effort, which exceeds the cost 
of a Ford-class aircraft carrier, outside the normal program of 
record rules and regulations. It is also important to remember 
this is a software-intensive effort, and that the last 17 years 
of F-35 software development have seen dramatic cost increases 
and significant delays. How this new effort will somehow defy 
this unfortunate history remains an open question, to put it 
mildly.
    If Congress agrees to support this effort at this cost, and 
under the proposed management regime, it should only do so 
fully aware of the significant risks involved. It is possible, 
of course, that the effort will proceed without any problems. 
It is also possible that a few years from now we will be told 
of massive cost overruns and dramatically reduced capabilities 
planned for delivery. While I support improving the F-35 in the 
future to provide the best capabilities possible, I would like 
to explore in detail how the DOD is proposing to manage the 
significant risks involved in this effort.
    I look forward to hearing from our witnesses today, and I 
yield back.
    Mr. Turner. Thank you. Without objection, each of the 
witnesses' provided statements will be included in the hearing 
record.
    And in addition, I ask unanimous consent that non-
subcommittee members be allowed to participate in today's 
briefing after all subcommittee members have had an opportunity 
to ask questions.
    Without objection, non-subcommittee members will be 
recognized at the appropriate time for 5 minutes.
    Gentlemen, we will begin with Admiral Winter, and you will 
be followed by General Rudder, Admiral Conn, and then General 
Harris.
    Admiral.

  STATEMENT OF VADM MATHIAS W. WINTER, USN, PROGRAM EXECUTIVE 
OFFICER, F-35 JOINT PROGRAM OFFICE, OFFICE OF THE SECRETARY OF 
                            DEFENSE

    Admiral Winter. Thank you, Chairman Turner, Ranking Member 
Tsongas, and distinguished committee members. It is a distinct 
honor and pleasure to appear before you today with my three 
esteemed colleagues who represent our U.S. warfighters.
    In addition to our eight international partners and three 
military sales teammates, these gentlemen are my customers, and 
they hold me accountable to deliver an affordable, lethal, and 
capable fifth-generation F-35.
    Let me say upfront, over this past year the F-35 program 
execution has remained on track. We have delivered the Block 3F 
capability to our warfighters and are preparing to continue 
that capability development. Our production costs are coming 
down as our three production sites in Italy, in Japan, and in 
Fort Worth are beginning to ramp up for full rate. We are 
sustaining over 270 aircraft around the globe as we expand our 
global network to ensure that we can do that and handle the 
fleet growth. And our U.S. warfighters are prepared, trained, 
and ready to fight the fight today with F-35.
    However, with these overwhelming and marked increases in 
accomplishments, we have a lot of challenges. And those 
challenges across development, production, and sustainment 
lines of effort have gone through a number of dialogue and 
quarterly engagements with the professional staffers and 
discussing these challenges and opportunities extensively. What 
I would like to do today is take a few minutes to highlight 
some of those directly with you and how our PB-19 [President's 
budget 2019] budget submission provides the critical 
investments to tackle those challenges, but also help enable 
some of the opportunities.
    In development, our combined government and industry team 
has made significant progress in Block 3F test program, 
finishing all of our weapons testing, flight sciences, and 
mission system capabilities, executing over 5,000 test points 
just this year, and resolving a lot of the known deficiencies--
and we still have deficiencies remaining that we will talk 
about.
    We are on track to complete, though, the final SDD [system 
development and demonstration] flight certification and 
verification of the spec [specification] later this month. We 
have delivered the Block 3F aircraft software last month to the 
United States Air Force, and are preparing to provide to our 
United States Marine Corps and United States Navy later this 
month and next month.
    All of that together brings enhanced sensors and targeting, 
improved data links, improved threat countermeasures, and 
enhanced weapons capability throughout the flight envelope. 
Though we have delivered the Block 3F, we must continue to 
mature the enabling capabilities. And those enabling 
capabilities--and specifically, the ones I am talking about are 
the ones that we have warfighter operational concerns with. 
Those are our mission data files, MDFs, and the Autonomic 
Logistics Information System, ALIS.
    To that end, we are improving our reprogramming labs and 
putting actionable initiatives in to ensure that we can deliver 
MDFs in a more timely fashion. We are stabilizing the current 
fielded ALIS capability to give our warfighter higher system 
capability confidence. And we are assessing a new ALIS 
architecture road map to ensure it scales with production and 
remains viable for the long term.
    Our PB-19 submission captures these and some of other--our 
critical near-term requests.
    We completed all of our hardware qualifications this year, 
which allowed us to lock down the production specs, so that we 
can deliver spec-compliant hardware. We also made considerable 
readiness from last year, on track to start formal initial 
operational test and evaluation.
    Additionally, we are supporting, hand in hand, the Director 
of DOT&E in his execution of select pre-IOT&E [initial 
operational test and evaluation] events that are taking 
advantage of unique operational weather conditions and 
availability of military capital assets.
    For the development of F-35 warfare capability, we can't 
stop at Block 3F. Rather, Block 3F is our foundational element, 
which we will go forward for continuous enhancements and 
improvements, and must be delivered to ensure F-35 retains that 
battlefield dominance.
    However, there should be no doubt that currently fielded 
Block 3 is and can engage and provide the much-needed 
capabilities to our warfighters to fight the fight and to 
engage those--today's threats. The problem is, is those today's 
threats are not stagnant. So we have leveraged the experience 
of our national intelligence agencies to provide an assessment 
of those future threats. And from those future threats, our 
warfighters have defined the next set of requirements.
    The Department has approved and validated those Block 4 
capability requirements to ensure that the F-35 remains 
relevant. With the Block 4 requirements established and the 
Block 3 capability baseline understood, it became crystal clear 
to me that we could not pursue a development progress and plan 
similar to what we did over the last two decades, not in time, 
nor in cost.
    The threat is simply moving too fast. We saw not only an 
opportunity, but a mandate to craft a new, innovative strategy 
that leverages commercial agile tenets to modernize, enhance, 
and improve the F-35. This strategy will develop, integrate, 
and test released incremental capabilities on a warfighter-
defined and technically feasible cadence that accommodates 
those shifts and threats, but also can take advantage of new 
technologies that come on, and oscillating resource budgets.
    This new capability delivery, C2D2, continuous capability 
development and delivery, reflects industry's best practices 
and will simultaneously support the currently fielded 
capability as we bring on new capabilities. With this 
opportunity, though, there is absolutely no doubt in my mind 
there are many challenges. We are still in the initial stages 
of this new strategy, one of the reasons why the FOM [follow-on 
modernization] report did not provide the detailed data that I 
know we need to bring to you.
    This new strategy will start to decompose the requirements 
to a technically feasible work packages so that we can more 
accurately define the work; lay out an executable, realistic 
schedule; define the new skill sets that we need within the 
government and our industrial base; and more accurately 
estimate the associated costs.
    I want to thank this committee's proactive engagement in 
the recently signed FY [fiscal year] 2018 NDAA, directing the 
Department to pursue more agile acquisition developments like 
this, and for Block 4, requesting the Congress' support as we 
bring on those new skill sets and develop those new cost 
estimating relationships, engineering and test methodologies, 
and set a course for a true cultural change across the 
Department.
    You have my commitment that we will continue to communicate 
the evolution and the evaluation of this strategy in real time 
with you, with your staffs, and all the defense committees in 
my quarterly in-person updates, as well as our annual update of 
the C2D2 FOM report, as required by the fiscal year 2017 NDAA.
    From a production perspective, our U.S. services' total 
procurement quantities remain steady at 2,456, with our 
international partners and FMS [Foreign Military Sales] 
teammates coming forward with their procurement of 741 aircraft 
over the life of the program.
    Last year our program achieved the planned delivery of 66 
aircraft, but also 74 propulsion systems, as planned, including 
the very first F-35A coming off of the Japan Nagoya FACO [final 
assembly and check-out] production line, and the very first F-
35B from our production line in Cameri, Italy.
    In 2018 we have already started delivering Lot 10 aircraft 
with the Block 3F capability. Our program's delivery goal of 91 
aircraft this year combines both U.S. and international 
partners' aircraft. Our PB-19 request funds--requests the 
funding for 77 U.S. aircraft, so that we can maintain the 
capacity requirements of our U.S. warfighters.
    I will tell you on price I am encouraged but not satisfied 
with the reductions. Six percent is good because we are coming 
down, but it is not good enough. The $94.5 million settlement 
price for an
F-35A in Lot 10 was good, and we are delivering aircraft now 
under $100 million, but we need to get better. We need to 
further drive out the cost of production.
    To that end we have set aggressive cost glidepaths, and we 
have new incentives with industry to truly lean out their 
production processes, increase their quality, hold them 
accountable, and effectively ramp production from the 66 of 
last year to 160 in 4 years, all while giving--ensuring fair 
and equitable profit, but not excessive profit, so that we can 
make this continued cost reduction fit our services' budgets.
    I appreciate the subcommittee's critical support for 
providing the Department with the ability to use economic order 
quantity funding in FY 2019 and 2020. This approach is 
absolutely important step in making the F-35 continued cost 
reductions.
    But it won't solve the problem wholly. My team remains 
keenly focused on aggressively reducing the cost to produce 
this F-35 by leading a multi-agency cost deep dive with our 
prime contractors and the top 100 suppliers to build a 
knowledge base that allows the government and the prime 
contractor to fully understand what it costs and what drives 
the cost of producing an F-35.
    Additionally, as production line assessments are conducted 
across that supplier base, my team will highlight production 
line efficiencies that, when implemented, will further reduce 
and have the opportunity to reduce F-35 production costs. We 
are attempting to achieve an approach, a competitive cost at 
the fourth-generation alternatives [sic].
    Finally, let me address sustainment. As of last month, the 
operational F-35 fleet consisted of over 270 fielded aircraft 
around the world, and we are on track to deliver 670 additional 
aircraft over the next 5 years. To support this growth, the F-
35 global support solution is working full-time to provide 
cost-effective, safe, and timely maintenance, repair, overhaul, 
and upkeep capabilities that looks at the airframe, engine 
component, warehousing, and distribution.
    We are expanding our global operational footprint from 13 
bases to over 35 land and maritime bases over the next 5 years, 
with our United States Air Force F-35s today--forward deployed 
at Kadena Air Force Base, our United States Navy F-35s 
conducting carrier qualifications in support of their upcoming 
initial operational capability, and our United States Marine 
Corps conducting the first-ever F-35B maritime operations right 
now on the USS Wasp in the Pacific operational region.
    With all that said, however, I am fully aware that, at 
current estimates, the F-35 sustainment costs are too high, 
given that planned fleet and our current future service 
budgets. We are tackling these cost challenges head on. We have 
established aggressive sustainment, performance, and 
affordability goals to improve performance and reduce overall 
sustainment costs by 30 percent across the life cycle.
    Equally as important, we are actively pursuing actionable 
initiatives to realize these costs. I look forward to talking 
about those in the questions and answers, but here is a quick 
look: accelerating the stand-up of repair capacity at our 
organic depots; increasing the acquired spare parts posture; 
investing in reliability projects to reduce aircraft subsystem 
failures; stabilizing and enhancing the ALIS to more accurately 
identify maintenance issues; flowing increased maintenance 
action authorities down to the flight line to reduce 
operational turnaround times; completing the modification of 
older aircrafts, our LRIP [low rate initial production] 2 
through 5 aircrafts, and bringing them up to the more reliable 
and sustainable technical refresh 3 configurations; and, in the 
business, looking at shifting to true performance-based 
logistics business frameworks that will allow us to capture the 
true cost and hold industry accountable to deliver quality 
performance for a reduced cost.
    Through these initiatives, our calculations show that we 
should increase availability by 20 percent, on average, and 
shift the sustainment cost ratio as we track to meet our 30 
percent reduction goal. I have my entire sustainment enterprise 
as well as our senior Department of Defense leadership laser-
focused on these actionable cost-reduction efforts to ensure we 
can meet the cost targets and our U.S. and partner warfighters 
can own and operate the F-35 well into the future.
    In conclusion, we are on track for another productive and 
challenging year. It will be a year of growth and transition, a 
shift as we go from legacy SDD to C2D2, grow and align our 
production facilities to meet the coming ramp, while driving 
quality in and costs down, ensuring that we can effectively 
shift that cost ratio, and reinforcing a global supply chain 
and distribution network to hit our service and partner cost 
targets.
    The F-35 is ready to fight the fight today, and your JPO--
your JPO--is working daily to ensure F-35 remains affordable, 
lethal, effective, and a warfighting system in support of your 
National Defense Strategy. We will continue to focus on that 
affordability, accountability, and open transparent 
communication, and you have my commitment to do so.
    Mr. Chairman and distinguished committee members, I thank 
you again for the opportunity to provide these opening remarks, 
and I look forward to your questions.
    [The prepared statement of Admiral Winter can be found in 
the Appendix on page 38.]
    Mr. Turner. General Rudder.

 STATEMENT OF LTGEN STEVEN R. RUDDER, USMC, DEPUTY COMMANDANT 
          FOR AVIATION, HEADQUARTERS U.S. MARINE CORPS

    General Rudder. Chairman Turner, Ranking Member Tsongas, 
distinguished members of the House Armed Services Subcommittee 
of Tactical Air and Land Forces, and other distinguished 
members that are here, thank you for continued support, and I 
appreciate the opportunity to testify on the Marine Corps F-35B 
and C program.
    In line with Secretary Mattis' guidance and CMC [Commandant 
of the Marine Corps] priorities, my top priority for aviation 
are framed around the National Defense Strategy or--of the 
principle of lethality. Central to this are building readiness 
for combat and modernizing our aircraft.
    Transitioning Marine aviation's legacy tactical aircraft to 
a fleet of fifth-generation F-35Bs and Cs is critical. They 
will perform the foundation of the next generation of air 
combat element by providing us tools to execute our required 
mission sets. The F-35 remains our top acquisition program.
    The Marine Corps program of record is 420 F-35s: 353 F-35Bs 
and 67 Cs. 2018 marked the first year we are buying over 20 
aircraft per year. This ramp is optimal for us, and will allow 
us to train fifth-generation aircrew maintainers, while 
simultaneously supporting global force requirements as we 
transition out of legacy platforms.
    From the operator's perspective, the F-35's capability is 
unmatched. Marine F-35s have participated and continue to 
participate in exercises like Red Flag, Agile Lightning, and 
our weapons and tactics instructor course. The aircraft has 
proven its worth across all assigned mission sets, and achieves 
mission success not previously achieved by other platforms, 
certainly our legacy platforms.
    To date, the Marine Corps has activated four 35B squadrons. 
VMFA-121 [Marine Fighter Attack Squadron 121] in Japan has 
assumed the 31st MEU [Marine Expeditionary Unit], as Admiral 
Winter just stated, flying on this week. And they have--still 
have 10 back in Iwakuni to assume as a 10-plane squadron to 
assume those mission sets. This week they flew six aircraft 
onto the USS Wasp to support the 31st MEU. Of note on that, 
they took two brand-new pilots with them in sea state number 3 
and they felt comfortable landing that aircraft on a pretty 
dodgy flight deck, and it landed without incident. That is the 
extra stability of this particular aircraft.
    A second F-35 MEU on the USS Essex will deploy this summer. 
So this fall we will have two F-35B decks on two different 
ships in the Pacific and/or other theaters.
    So my message, I guess, is as we talk about sustainment, we 
are in it today.
    Marine Corps will transition its first F-35C squadron, 
VMFA-314, in FY 2019. They are currently over in the CENTCOM 
[U.S. Central Command] AOR [area of responsibility] doing great 
work for our CENTCOM commander. They will be ready for 
expeditionary operations in 2021, but their primary mission 
will be to work up and deploy on the carrier by 2021, right 
after the first Navy deployment. Ultimately, we will have four 
F-35C squadrons that will rotate in deployments on the carrier 
with our naval brothers and sisters through a tactical air 
integration program.
    We have an aggressive road map, but we expect to complete 
our transition to the F-35B and C to be out of legacy attack 
air by 2030, and F-18s being the last legacy attack air we will 
get out of.
    Now our primary concern. The Marine Corps, in the 
partnership, need to see a reduction in cost to own and operate 
the F-35. This is by far our greatest programmatic challenge. 
We are working with JPO and industry to drive down cost. There 
is a learning curve associated with aviation logistics. As this 
process becomes more mature, we expect to see a decrease in 
operations and sustainment costs. The key areas, such as parts 
reliability, repair turnaround times, are being addressed.
    Very simply, I think, as you just heard Admiral Winter say, 
and as we have laid into our FY 2019 funding, we have laid in 
standing up our intermediate-level maintenance capability; 
being able to test and check and/or repair parts closer to the 
flight line; accelerating our stand-up of our organic depot 
repair capability; investing in our spares, fully investing in 
our spares capacity. And Chairman, your budget and everything 
that this committee has done and Congress has done to increase 
our spending limits have allowed us to not only buy airplanes, 
but also fully invest in our spares, so I thank you for that.
    We are also investing in engineering to improve parts 
reliability. And, quite honestly, what helps with our 
reliability of this aircraft is upgrading our software, because 
many of our mission systems are the ones that give us those 
fault codes that provide [inaudible] discrepancies. New 
software will help us work through that.
    I will re-emphasize that both variants F-35B and C are 
critical to Marine Corps aviation's modernization strategy, and 
our Nation's ability to deter and compete. The average age of 
the Marine Corps attack air aircraft is 22 years old. Our fleet 
of Harriers and Hornets continue to support deterrence combat 
missions forward. Whether they are on a ship--we have them on 
the carriers--land-based, or various parts of the world, they 
will continue to do that, and we will continue to update them 
to maintain tactical relevancy.
    However, even in the most basic form, our F-35 today are 
already forward deployed and far more capable [than] any of our 
legacy tactical platforms.
    Mr. Chairman, distinguished committee members, we 
appreciate your continued support of our aviation programs; 
look forward to answering your questions.
    [The prepared statement of General Rudder can be found in 
the Appendix on page 67.]
    Mr. Turner. Admiral Conn.

  STATEMENT OF RADM SCOTT D. CONN, USN, DIRECTOR, AIR WARFARE 
      (OPNAV N98), OFFICE OF THE CHIEF OF NAVAL OPERATIONS

    Admiral Conn. Chairman Turner, Ranking Member Tsongas, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today and discuss the Navy's
F-35C, a fifth-generation aircraft that, when fully integrated 
into the carrier wing, will make the carrier strike group more 
lethal.
    In support of the National Defense Strategy, the 
procurement and modernization of the F-35C remains a priority 
to integrate into our carrier air wings. The F-35C will form a 
backbone of the Navy's air combat superiority fighter for 
decades to come, complementing the fourth-generation fleet from 
the carrier air wing.
    The carrier air wing of the future must rely on the 
capacity and capability of both fourth- and fifth-generation 
aircraft. The F-35C provides unique capabilities that cannot be 
matched by modernizing our existing Super Hornets: low 
observable technology, modern weaponing, electronic warfare 
capability, and advanced integrated systems that enable the F-
35C to rapidly counter an ever-evolving air-to-air or air-to-
surface threat.
    The F-35C integrate an--interoperable with carrier wing and 
the carrier strike group of the future, will make us again more 
lethal, more survivable, and more able to accomplish the entire 
spectrum of missions that could be called upon from our global 
force.
    The fiscal year 2019 President's budget maintains the PB-18 
procurement profile, which will meet the transition timelines 
for our aircraft and squadrons to get to the fleet. The Navy is 
committed to procuring F-35Cs to achieve fifth-generation 
capability for what it takes to win in a near-peer competitor 
environment.
    The Navy recognizes everyone on this stage, or on this 
dais. The Navy recognizes the operation and sustainment costs 
associated with a fifth-generation aircraft are going to exceed 
those of a fourth-generation aircraft. However, we have to 
drive down the cost to make it more operationally affordable. 
We are aggressively pursuing efforts among those that were 
mentioned previously to reduce those costs by over 30 percent 
in 10 years.
    One of those areas where we see potential cost savings is 
to reduce the amount of contract logistics support. There are 
many things that are done by contractors that our sailors, once 
they get informed and trained, can do and should do to drive 
down costs. We have funded the initial effort to stand up the 
intermediate-level depot that will be first deployed on our 
carriers and amphibious ready groups, and then to our shore 
installations.
    The Navy needs the capability of F-35C on our carrier 
decks, particularly in light of the geopolitical landscape that 
we are in, and the pacing threat. Affordability initiatives are 
underway and drive costs closer to the fourth-generation 
aircraft. Development and modernization efforts for the fifth-
gen [generation] aircraft are like every other aircraft we own: 
we are modernizing our Super Hornets, we are modernizing our E-
2, we are modernizing our E-18G with Next Generation Jammer. It 
is no different, particularly against the pacing threat.
    Mr. Chairman, distinguished members, thank you for your 
continued support. I look forward to your questions.
    [The prepared statement of Admiral Conn can be found in the 
Appendix on page 77.]
    Mr. Turner. General Harris.

  STATEMENT OF LT GEN JERRY D. HARRIS, USAF, DEPUTY CHIEF OF 
STAFF FOR PLANS, PROGRAMS, AND REQUIREMENTS, HEADQUARTERS U.S. 
                           AIR FORCE

    General Harris. Chairman Turner, Ranking Member Tsongas, 
and distinguished members of the subcommittee, thank you for 
the opportunity to testify again. Our engagements should 
continue to increase in both frequency and qualitative content 
as we continue to benefit from them.
    As not yet mentioned, some of the questions you may ask may 
lead to classified answers to which we will be happy to respond 
after the meeting, rather than try and talk around the correct 
answer, to make sure that we get the information that you need.
    The United States Air Force is now operating more than 130
F-35As, and will continue to grow the wealth of knowledge and 
further develop both the aircraft and the tactics, techniques, 
and procedures for this weapon system.
    Last year, when we all met on this topic, we were eagerly 
awaiting the results of getting this system out into the hands 
of our staff sergeants and our captains. I cherish the moments 
behind my Pentagon desk when I get to speak with these 
professional maintainers and aviators about the work that they 
are doing. And they are all smiles, talking to me.
    As expected, the newer aircraft are--with updated software 
are flying better, they are flying more, and they are 
performing extremely well in our deployed and training 
environments. While we still need further modifications, the 
combat units employing this weapons system feel like the Block 
3F version of the F-35A is the aircraft they were promised. In 
other words, to them, it rocks.
    We appreciate the continued support of the Tactical Air and 
Land Forces Subcommittee, and we look forward to your 
questions. Thank you.
    [The prepared statement of General Harris can be found in 
the Appendix on page 85.]
    Mr. Turner. I think you get the prize for the quickest 
presentation.
    [Laughter.]
    Mr. Turner. Because we have so many members and so many 
questions that members want to ask, I am going to keep my 
questions somewhat short.
    Admiral Winter, there is much discussion in DOD and in your 
written testimony about affordability. What defines 
affordability? I mean, percent reductions in unaffordability 
does not necessarily mean affordability. So what is our goal? 
What--how do we define affordability? And doesn't economics of 
scale play in the overall equation of trying to reduce costs to 
reach affordability?
    And on the aspects of sustainability, one of the goals of 
designing this aircraft was that it was, in theory, supposed to 
be designed to be easier to sustain.
    You were telling us some of the things that the JPO is 
doing in order to try to address those. The--could you please, 
you know, give us some context of why we are not where we had 
intended, and how we are going to get there. And where is 
there? What is affordability?
    Admiral Winter. Thank you, Mr. Chairman, for that 
opportunity to define affordability. Also, the tenets of our 
program that support our warfighters' ability to fight the 
fight with F-35.
    Affordability comes in the context of--from a resource 
capability to--able to provide the people, the facilities, and 
the funding to be able to accomplish the F-35 development, 
production, and sustainment.
    What we have seen over the past is certain decisions in the 
legacy acquisition strategy of 2001--total system performance 
responsibility, for example--that provided the opportunity for 
industry to chart the course of F-35. That allowed the 
technical and programmatic insight that is normal across the 
United States Government acquisition force in the program to 
not be at the same level and rigor that this acquisition 
professional would seem to be appropriate.
    In that, to the 2004 to 2007 timeframe, technical issues 
such as the weight of the F-35B, such as the LO [low 
observable] characteristics of the airframe, and other 
technical issues drove technical pauses and stops, and 
requirements changes, as well as program restructuring that 
culminated in the Nunn-McCurdy in the late 2000s. At that 
timeframe the re-baseline and the step-out anew of 2011 
established an opportunity to actually design, develop, and 
deliver the F-35 air system.
    So, from an affordability perspective, there was an 
inflection point in 2011 to reset that clock. That clock was 
reset. And since that time, from a development perspective, the 
program has executed within the mandates and the guidance of 
the Department and the Congress to design and deliver F-35.
    The extenuating attributes of F-35 goes in--that we capture 
the entire F-35 air system in our cost estimates, in our 
technical work to go. So it is not just the aircraft, it truly 
is the intelligence systems, it is the maintenance systems, it 
is the training systems, it is the planning systems. All of 
those elements that in traditional aircraft programs are 
captured in other budgets and reported through different 
mechanisms, F-35 and the Joint Program Office reports all of 
those costs together over the entire life cycle.
    And with that gives us the opportunity to see what it truly 
costs to deliver fifth-generation strike fighter capability. In 
that the production costs will continue to come down, not just 
from a quantity perspective, which our industry partners would 
say, but as importantly, getting a true understanding of what 
the touch labor and the material costs are so that the U.S. 
taxpayer and our partners actually pay what they should pay for 
an F-35, F-35 ALIS system, an F-35 trainer and intelligence 
system.
    Those are some of our initiatives in the deep dive in the 
production line of effort to ensure that we not only negotiate 
fairly with our industry partners, but we continue to look to 
the long term, all the way to 2044, which is the intended 
production run of the
F-35.
    From the sustainment perspective, this program office and 
previous administration had their eyes appropriately focused on 
F-35 development to get warfighting capability into the hands 
of our warfighter. We kept the emphasis on production and we 
made sure that sustainment was looked at, but we didn't give it 
the same scrutiny that it needed to be, and we are giving that 
scrutiny now.
    And our operation and support, as I say, if you can afford 
to buy but not own and operate, then you are going to have to 
either not buy more, or you are going to have to reduce the 
overall execution. And in that case we have sat down with our 
service--U.S. service and international partners and the senior 
leadership, to the very senior leadership of the Department of 
Defense, and we have charted a sustainment cost ratio and a 
sustainment engagement strategy that focuses on the true 
levers, not just to reduce costs, but to understand those 
costs.
    Previous engagement with the industrial base--as we were 
growing the production line, we identified a number of 
unreliable subsystems because of the immaturity of the aircraft 
and the immaturity of the subsystems. Those immaturities are 
starting to be matured, and we are bringing on in our newest 
lot of aircraft, in lot 9, lot 10, and lot 11, much higher 
reliable subsystems. So those aircraft availabilities are much 
higher. They are in the 65 to 75 percent range, where our 
oldest jets, the LRIP 2 to LRIP 5, are in the 40 percent 
availability because of failing subsystems, because we cannot 
repair those subsystems, and because we don't have new spare 
parts on the ramp to put those into the aircraft to--for them 
to go back and get--to operate.
    So with that definition of the problem set, we have 
identified actionable efforts on, one, to transition and stand 
up the repair capacity for those over 3,000 items right now, 
the backlog of 3,000 subsystems that need to be repaired: tire 
and wheel, thermal management systems, avionics, and things of 
that nature. We have stood up 23 repair capacity organically 
within our United States, and we are starting to stand up the 
next 19 over the next 2 years. Our PB-19 requests the 
appropriate resources to do that next phase of organic depot 
stand-up for repair capacity.
    In standing up that repair capacity, we take the repair 
demand signal off of the industry base, and allow them to focus 
on what they are good at, which is actually producing at rate 
the individual subsystems and spare parts that we need. Those 
industrial [inaudible] in the supply chain will be--then be 
able to go for spare parts and also new production parts. That 
will allow us to get to the spare parts posture that is 
absolutely necessary, coupled with the repair capacity to 
increase our availability.
    The other initiatives to actually drive in reliability into 
those subsystems, we will realize that as we go forward into 
the lot 10 that we are delivering, all the way through our lot 
15, when we bring on our technical refresh 3 new hardware and 
computing capacity that truly gives the government an open 
architecture, government-owned interface of the inner guts of 
the F-35 aircraft that will allow us then to drive, in our 
Block 4 cadence of software and hardware modernizations and 
enhancements and improvements, affordable at our pace cadence 
and best performer, and not beholding to a single individual 
industry partner.
    The other elements that allow us to drive down that--the 
O&S costs are taking our ALIS system and stabilizing it and 
bringing it up to the usability and functionality necessary to 
truly--what we call prognostic health management, to be able to 
predict the maintenance efforts on our aircraft ahead of time. 
That is still a number of years away. But with the recent 
release of our Block 3F software in the aircraft, and our 
pending release of ALIS, we will be able to get ourselves back 
into a position where we don't take subsystems off of the 
airframe unless they are actually failed.
    Those are our primary technical and programmatic efforts to 
get after the O&S costs as we go forward. Thank you, sir.
    Mr. Turner. Admiral, as you know, when Congress always--our 
work is prospective. We are working on next year. Right now we 
are doing the 2019 fiscal year National Defense Authorization 
Act.
    I think everybody gets the sense that the F-35 is turning a 
corner, which is positive. But I would say that 2019 is the 
year of the F-35. Everyone is looking to--that the issues that 
are outstanding be solved, and that costs be--come down in a 
way that is predictable, and that--the implementation of what 
you just described occurring.
    Going back 2 years backwards, you know, we are doing 2019. 
In 2017, when we did the National Defense Authorization Act, we 
put a section in the bill that required the Department to 
provide the congressional defense committees with a report that 
contains the basic elements of an acquisition baseline for 
Block 4 modernization.
    In January of this year, the Department provided us a 
report that provides only initial insight, which, of course, 
reduces our overall confidence that the Department of Defense 
actually knows the answer to the question.
    In 2019 being the year of the F-35, it is also the year of 
the
F-35 for our oversight. Are you familiar with this request of 
the basic elements of an acquisition baseline for Block 4 
modernization that the committee has requested? And, if so, can 
you tell us when we might be able to receive something besides 
just initial insight? And, if not, could you please take this 
back and address the issue?
    Admiral Winter. Mr. Chairman, I am familiar and aware of 
the direction from the NDAA, and I am aware of the pedigree of 
the report contents that did get delivered to your committee 
and the Congress.
    The next elements of the continuous capability and 
development and delivery framework is being established today. 
We are late to need in establishing that activity. We have been 
pushed with the Block 3F, which is the departure point, but we 
have now got defined requirements from the warfighter. We 
understand the Block 4 requirements, and those requirements to 
address the advanced threats in the four mission sets that the 
U.S. services need to use the Block 4 system for.
    With that, this year and next year, right now, we are 
devolving those warfighter requirements into technical work 
baselines. We did not have that information when the report was 
sent. We had the plan to do that technical work understanding 
and lay out the technical efforts to a PDR [preliminary design 
review] and CDR [critical design review].
    We also saw the opportunity, with the Block 4 capabilities 
being 80 percent software-driven, to embrace an agile, rapid, 
iterative process that allows us to target capability 
enhancements and improvements on a warfighter cadence. If they 
need the EW [electronic warfare] system updated, we can do the 
EW system, instead of having what we--you would normally see in 
a program of record, which is out to--all the way to 2024 with 
every individual capability always going to be delivered at an 
exact same time.
    We are embracing that flexibility and opportunity, but we 
are not being haphazard. The technical underpinnings of this is 
based upon our technical refresh [TR] architecture of the 
aircraft. The current TR-2, half of the Block 4 capabilities 
technically can operate on that. And then TR-3 in 2021, the 
balance of those capabilities can operate on TR-3, or needs to 
operate on TR-3.
    So before the report was sent we were able to be able to 
map those timelines and to map those 3-year periods and then 
provide a cadence delivery. And so we are on our path to 
provide that technical underpinning and, with that, the cost 
estimate to do the verification, validation, and understanding 
of the new agile principles and system engineering and test.
    We will have our Defense Acquisition Review Board [DAB] 
with Ms. Lord in June, and in June our acquisition strategy we 
are bringing forward for approval. And at that time we will 
have the entire acquisition plan all the way to 2024 laid out 
for the Department's review and approval. We plan to share that 
as it evolves before June, and I have authority to provide that 
as that is maturing to the Congress, as part of our quarterly 
updates. And then, as we come out of the June DAB, bring the 
Block 4 plan to you.
    Right now, from a cost estimate perspective, we are using 
our traditional cost-estimating relationships, which are based 
on the Block 3 and traditional acquisition timelines. We are 
proposing true agile scrum, rapid, iterative activities to 
design and develop in code, and then have operational and 
developmental testers review and look at it, and then put it 
into the system. And when I say that, I mean put it into ALIS, 
put it into the aircraft, put it into the simulator, put it 
into the intelligence system. It is not just the aircraft. That 
allows us rapid delivery, as well as understanding and 
learning, and be able to flex to real-world threats as they 
become aware by our warfighters.
    I realize that this is not traditional. And what I--what we 
need to do is provide you the sense of confidence for the 
goalposts that we can operate between, and bring that to you. 
Right now, our FY 2018 and FY 2019 resources provide those 
necessary critical near-term so that we can bring you that plan 
as we come forward in this summer. Thank you very much, sir.
    Mr. Turner. Niki Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. And thank you Admiral 
Winter, for being here.
    I mean I think we have these questions on C2D2 going 
forward, because it is important that if Congress is going to 
understand the costs and the risks and the timeline to be sure 
that it is executable, realistic, and--in its scheduling, and 
realistic in its goals, we need to understand all that before 
endorsing it.
    So, in addition to what you just said, it is my 
understanding that you were unable to provide a definitive 
estimate in the January report, which was requested--again, 
because we need to be mindful of what Congress is committing 
itself to because the military services have yet to decide how 
much of that potential $16 billion upgrade, if you include the 
$11 billion in development, the $5.4 billion in procurement, 
how much of that they are willing to pay for. Is that correct?
    Admiral Winter. Ma'am, I appreciate the opportunity for 
those numbers. Right now the current cost estimate across all 
the way to 2024, which is 2 years more than a normal FYDP 
[Future Years Defense Program], is $10.8 billion. That is the 
current cost estimate.
    Ms. Tsongas. For development?
    Admiral Winter. For development of all eight elements--the 
aircraft, the MDFs, ALIS, the simulators, the threat databases, 
the mission planning, and the reprogramming laboratories--to be 
split between the international partnership and the U.S. 
services. The international partnership will be, right now, 
estimated $3.7 billion of that $10.9.
    And so the U.S. services will be--their cost share is $7.2 
billion over 7 years, which is just over $1 billion a year, for 
modernizing and enhancing the F-35 air system, which is on par 
for post-development ratios of the complete scope that I just 
articulated.
    Thank you, ma'am.
    Ms. Tsongas. And then I would like to follow up, then, with 
our service representatives to just find out where each of your 
service stands on the issue of your piece of the C2D2 program, 
what decisions will need to be made in your service as to the 
way forward, who will make them, and when.
    And we will start with you, General Rudder.
    General Rudder. Thank you. Thank you, Congresswoman. I 
think in some cases, when it comes down to the budget, the 
Commandant will have a fair bit of say about what we spend that 
on.
    But as we look at C2D2, the one thing that I find that is 
important to understand in this committee is that--the agility 
and the requirement for the agility.
    So we will--they--the JPO will scope out the program and we 
will stair-step this up, some of it in the initial processor 
that we have now, and then the follow-on processor that will 
get us to endgame.
    But one thing, as a service, that we are actively looking 
at is the ability for the agility. Now, the agility of this is 
to be able to download the capabilities we need on a 
prioritized method that allows us to upgrade the aircraft to 
keep pace with the threats. And I think one thing about the 
C2D2 that sometimes gets clouded, I think, is how rapidly the 
threat and the pace of technological development that they are 
progressing at.
    So there will be some budget decisions that have to be 
made. If the scope of the work comes in at the level that is 
proposed and is looking for within our TOA [task order 
agreement], we are going to be able to handle that. Obviously, 
O&S costs is another big part of that, which is another 
discussion item. But we, in the environment that I think all 
three of us are operating in, we have to build and download--
and be agile and download the aircraft with updated 
capabilities to keep pace where we see the threat going, 
certainly out into the 2025 timeframe.
    Ms. Tsongas. So would you say at this point you are 
comfortable with what the Marine Corps is looking at? The cost.
    General Rudder. I am comfortable in the focus on the agile 
network--agile--the agile way ahead, and how Admiral Winter is 
approaching it. I think none of the service has a true comfort 
level until we get that sustainment--or no, not sustainment--
the cost of how this is going to happen scoped out. We will 
be--but year by year we are going to put money into C2D2 at the 
levels that Admiral Winter is requesting currently.
    Ms. Tsongas. Admiral Conn.
    Admiral Conn. I agree with Lieutenant General Rudder that 
we will fund to the requirement. There is obviously--as it 
works its way up through the POM [program objectives 
memorandum] process, up through this Chief of Naval Operations, 
Secretary of the Navy, but I think at the funding levels we are 
talking about we will fund to the requirement.
    Now, whether OSD [Office of the Secretary of Defense] jumps 
in and provides us some guidance, I am not able to answer that 
at this time.
    Ms. Tsongas. And General Harris?
    General Harris. Yes, ma'am. Thank you for that. Our Chief 
and Secretary likewise will have the final say, from an Air 
Force perspective, when it comes to that.
    But we do want to highlight one of the strengths of this 
program is that each of our bills are only 40 percent, from an 
airman's perspective, of what that upgrade costs because it is 
a joint program that we do share across the services and the 
allies. So that is helpful.
    We do have funds laid in our plan to cover most of these 
costs, and we do intend to execute these upgrades. But we are 
looking at the agile acquisition methods to reduce both the 
upgrade costs and also sustainment portion. So like my 
teammates, we are not certain of the costs that are coming our 
direction, that they will be covered as they are. We intend to 
make sure that we are driving those costs out and working with 
the JPO and the company to make that happen.
    Ms. Tsongas. I thank you all for your testimony. It is 
certainly--no matter--cost, and we just want to be sure that it 
is rooted in reality, and we are not facing, you know, as we 
have historically with this program, enhanced costs that could 
have been better thought through. Thank you.
    Mr. Turner. Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman, and thank all you 
witnesses for being here today.
    One of my biggest concerns is the operational and 
maintenance in keeping these birds flying. I mean they are 
critical, that--they not only--not only that we own them, but 
that we keep them flying in adequate hours to allow people to 
train, and also to operate, should we need them.
    And I am going to start with you, Lieutenant General 
Rudder, and go down the line to Admiral Conn and then General 
Harris, but I want you guys to tell me how many F-15s--I mean, 
I am sorry, F-35s that you have. If you can, tell me what the 
average cost to maintain those birds through 2017 was, and then 
tell me what percentage of the time that they were eligible to 
be flying that they were flying. I think that is critical. We 
got to get to the crux of the matter. Does it work when we need 
it to work? And how much does it cost to maintain?
    And Lieutenant General Rudder.
    General Rudder. We have got about 60 jets right now. Some 
are in operational tests and developmental tests. And then we 
have 16 operational aircraft at Iwakuni and about 12 aircrafts 
that are sitting in Yuma right now.
    Each one of the aircraft costs, as was alluded to earlier, 
but just for the lot number aspects of availability, I think we 
are seeing those lot 6 and below aircraft, which we have the 
majority of those in our training squadron, we see those below 
the 50 percent level. If we begin to look at lot 7 and above--
certainly as we get into lot 8 and 9--we start to border up 
into the mid-50s, getting close to 60.
    If we look at the squadron that is forward in Iwakuni right 
now, long lines of supply, then we look at about the mid-50 
percent. But if I look at the ones back in Yuma right now, they 
were running 9 out of 10 jets up, at a 90 percent. Now, that is 
not--that is a good day.
    But the upper level of some of the late-lot jets are 
running about 60 percent.
    Mr. Kelly. Just real quick, but the bottom line is where we 
are going to need these things are going to always be at long 
lines of supply. And we got to be able to fix our own stuff and 
fix it forward and have those stockage and parts and know what 
they are forward, because we are not going to be close, we are 
going to be far when we--if and when we do a fight.
    Rear Admiral Conn.
    Admiral Conn. Yes, sir. There are 28 F-35Cs, of which the 
Navy has 21 and the Marine Corps has 7. Primarily at Eglin, 
just standing up our FRS [Fleet Replacement Squadron] last year 
and our first squadron is transitioning--starting this month, 
actually--to be complete by October.
    In terms of the maintenance availability rates, I believe 
it is 50 percent. But I will make sure that I get the accurate 
answer to you and to this committee. And in terms of the actual 
costs, I don't have those at hand right now, in terms of cost 
per hour. But I will get--also follow up with that information.
    Mr. Kelly. I think that is really important to know those, 
you know, how often it flies, not--what--the war rate is one 
thing. But how often each bird--you know, we have pacing items 
in the Army. Each one of these things is a pacing item to me. 
And I knew what all my pacing items--I knew how often to buy a 
piece of equipment, how often they were available, and how 
often they were deadlined. And we need to do the same thing. 
And we also need to know what it costs to maintain, not just to 
buy.
    General Harris, please.
    General Harris. Congressman Kelly, sir, thank you for the 
question. And again, thank you for your prior service.
    The Air Force has 130 F-35As, 100 of those are Block 2B and 
older airplanes. And the availability rate of those aircraft 
was in the low 40s. For our 3I and our 3F aircraft, the 
availability rate, the ability to fly those airplanes, is in 
the 60 to 70 range. And currently our deployed team right now 
is above 70, average, for the several months they have been 
deployed. So that part is working well.
    Same on the costs. We think they are in about the $50,000-
an-hour range, but that varies by block and how you are using 
them, whether it is a training or it is an inter-operational 
deployment, and as we continue to grow the ecosystem of the F-
35. So the F-35 that you heard Admiral Winter speak about that 
rolled out of the FACO [final assembly and check-out] in Japan, 
being able to build these in Turkey from a final assembly, that 
will help us get these parts forward that we need and provide 
those distribution points. So that portion is also improving.
    Mr. Kelly. And, Admiral--I mean, I am sorry, General 
Harris--I don't want to put you in the wrong service here--
compare that to another gen five. You have both F-22s and F-
35s. Compare the cost and operational rates of those two 
aircraft, as far as maintaining and cost to maintain.
    General Harris. Costs are about similar, and we expected 
the F-35 to be a little cheaper, because the F-22 is a--it is a 
different airplane, the way we use it. It is an older LO [low 
observable] capability, so it takes more maintenance to 
actually keep that upgraded on the capabilities. So that 
portion of the F-22 that we are living with--because we have 
been flying fifth-gen for a decade now in our Air Force--they 
are about the same, and we expect the F-35 to be lower, because 
obviously it is going to be a more available, a lot more in the 
procurement side than--of the aircraft.
    Mr. Kelly. I yield back, Mr. Chairman.
    Mr. Turner. Thank you.
    Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chairman.
    Lieutenant General Harris, in your testimony you express 
your continued concern over ALIS. What is most disturbing is 
that recent investigation showed that ALIS does not deliver the 
required warfighting capability that the Air Force needs, but 
this software is already being fielded.
    I understand you have ordered a more in-depth study on this 
issue. Can you provide a timeframe of when this study will be 
completed?
    Furthermore, the fiscal year 2017 DOT&E F-35 annual report 
indicated that the program relies too heavily on the results of 
laboratory testing of ALIS software, which does not resemble 
operational conditions. The recommended--and recommended the 
program develop a more adequate test venue.
    Vice Admiral Winter, has the program taken steps to develop 
a better test venue for ALIS?
    Admiral Winter. Mr. Congressman, thanks for the question. 
We----
    Mr. Carbajal. I went from one to the other. I apologize.
    Admiral Winter. I didn't know if there was----
    Mr. Carbajal. Either one is fine.
    Admiral Winter. I will answer quickly. The operational 
environment lab that we have for our ALIS as it comes out of 
our Lockheed Martin RMS [rotary and mission systems] executive 
OMS [open mission systems] environment provides the operational 
reality and operational readiness for the fielded capabilities. 
The problem is that the--we are on that path to deliver the 
final functionality here next month, with ALIS 3.0.
    The true issues are in the underlying COTS [commercial off-
the-shelf] products, what they are--that are based upon a 1995 
architecture that drives just unacceptable usability and 
interface concerns to our warfighters. And we are on track to 
assess the re-architecture plan to address all of those 
usability issues, stabilize the software, and then work with 
our U.S. warfighters to ensure that ALIS will be scalable and 
flexible for the long future. That process is in place today.
    Mr. Carbajal. Thank you.
    General Harris.
    General Harris. Yes, sir. Thank you for the opportunity to 
speak about ALIS. That is one of our big concerns.
    The team continues to provide regular updates and upgrades 
to ALIS. So the study that you alluded to will probably be 
ongoing. We hope to wrap it up within the year. But as the new 
upgrades come, we actually add that in to make sure that we are 
working with the current state of what ALIS is now, versus what 
it was when we started the study. And that is helpful.
    As I talked to the maintainers as late as two nights ago, 
it is much better. We still have people that are permanently 
dedicated, their full-time job is to work on ALIS. And that 
wasn't what we had expected from our manpower, from our 
maintenance. We wanted our maintainers to be able to stay on 
the flight line, get the information they needed, and continue 
to work. And now the typical crew chief may have to actually 
secure her tools and her publications, walk in, do some work on 
ALIS to figure out the way ahead, and then go back out onto the 
flight line. So that is not optimal, that perspective, and we 
continue to work through that.
    Mr. Carbajal. General Harris, I just don't understand how 
we are now just realizing that the methodology we used to 
develop the software system may not deliver the required 
warfighting capability. Can you elaborate a little bit more on 
that?
    General Harris. The ALIS software system, is that what you 
are referring to?
    Mr. Carbajal. Yes.
    General Harris. Okay. It has been delivered in elements and 
pieces. It didn't come all together. We just now added the 
propulsion system to it. So ALIS does continue to grow, and it 
wasn't delivered where we need, and it is still not there yet. 
Things that used to take 5 and 6 hours to get the download, to 
know if the aircraft is going to be able to fly to make the 
next go, was substantially outside of the windows we needed. So 
we were able to turn that now, with the improvements and 
working with both the contractor and the JPO, to get that down 
to minutes. So the airplanes are able to make a normal turn 
time.
    Sir, I think we recognized that it wasn't going to deliver 
perfect upfront, that the upgrades would be required. We just 
think it is taking longer and more manpower-intense than we had 
expected.
    Mr. Carbajal. Thank you.
    Mr. Chair, I yield back.
    Mr. Turner. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman. And my questions follow 
General Kelly's line of thinking.
    And General Harris, first, thanks to you for all of the 
guidance and assistance you have provided me. I will say that, 
as my staff and I have spent time with folks at the 33rd 
Fighter Wing at Eglin, it has not been all smiles because we 
have gotten report after report that the parts are not 
available to ensure that we have got capable aircraft to meet 
the training syllabus.
    And while we have not been late in graduating any pilots 
yet, I have been told that we are rapidly approaching the 
inability to accomplish the mission. And I have got JPO, you 
know, and Lockheed Martin both sort of doing this. And so I am 
hoping you can enlighten us as to how to get out of this system 
where there are not adequate parts.
    And particularly, those who are training are frustrated 
when they send parts to JPO and those parts then end up in a 
combat squadron somewhere else. I can understand why one would 
do that under intense pressure. My hope is that this is 
actually neither Lockheed's fault nor JPO's fault, it is 
actually Congress's fault for keeping us under a continuing 
resolution for so long that we have been unable to adequately 
fund parts.
    So when we get beyond the current continuing resolution 
into an appropriations process, will we solve this problem 
before we are unable to graduate pilots on time?
    General Harris. So, Congressman Gaetz, thank you for that 
question. I would love to share the blame with Congress, so 
happy to do that. But it is partially us, sitting here. We are 
late in standing up our depots to actually turn and fix those 
parts. So we have been going back to the OEMs, the original 
equipment manufacturers, to get new parts for most of the time, 
rather than fix them. So those parts themselves are stacking 
up.
    And you heard the admiral talk that we are getting there to 
stand those depots up and fixing those parts faster.
    And, as you know, Eglin is special in all of our hearts. It 
is my birthplace, by the way. They have got our oldest jets. 
That is the first place we put them. So a lot of those parts 
that--they go, we are not even putting down to production 
airplanes, but they need those parts to keep them flying at the 
2B level, which are the jets that are--the way they are 
configured.
    So that is a concern of what we are looking at, from an Air 
Force, to make sure that our training pilots are getting the 
information and the quality of training they need before they 
go to those operational squadrons, and we are working through 
our plan to how do we either upgrade or swap those aircraft out 
and put them into a suitable role.
    Mr. Gaetz. And it invariably begs the question, if we have 
got folks training on the older aircraft, does that in any way 
impair the quality of the training, particularly if we are 
unable to get those aircraft in the sky.
    I have also heard troubling reports that Lockheed may be 
involved in changing the status of planes and their reports, 
going from non-mission-capable to potentially partially mission 
capable. To what extent is the contractor involved in that 
decision-making process, versus our uniformed military?
    General Harris. Normally, sir, they are not. And when it 
comes to an operational squadron, even less so. Because these 
are training jets in your particular case, it has happened 
where we say it is not flyable because the LO or a combat 
system may not be ready, yet the company looks at it and says 
the airplane is actually flyable, so they change the status of 
that. We disagree with that practice. We are working through to 
make sure that it is----
    Mr. Gaetz. Is that a current--do we currently have a 
situation where uniformed military says that the aircraft is 
not mission capable, the contractor says it is, and then the 
contractor's view is dispositive?
    General Harris. I think we have made a change to say that 
will no longer occur. It has occurred in the past. I don't 
think it is occurring right now.
    Mr. Gaetz. All right. It would be excellent if you could 
confirm that and maybe let the committee know, so that we could 
take comfort in the manifestation of that change.
    [The information referred to can be found in the Appendix 
on page 99.]
    Mr. Gaetz. Is there anything we can do and any guidance you 
would give us during the appropriations process so that we 
could work with our appropriators and authorize the right 
amount so that, on a going-forward basis, we don't risk sort of 
going over the edge of the waterfall on not graduating pilots, 
and then seeing an even more pronounced impact on combat 
squadrons than the missing of a part, because you would have 
the missing of a pilot, which is the most important part?
    General Harris. Yes, sir. That is a fair question. We are 
doing less than half of our upgrade training now at Eglin, as 
we have got a little more than one squadron and more jets 
standing up at Luke. So we are balancing that with making sure 
that we have, as the operation squadrons build, the training 
squadrons build. So I think we have that solved at this time, 
to make sure that the build is commensurate with what we need.
    As I said, the aircraft that are flying at Eglin are our 
oldest ones. They are our least available. But we are also able 
to measure and put fewer pilots per squadron into that until we 
can get those airplanes upgraded, as we talked about, to a 3I 
or 3F configuration, if that is the way we are able to go.
    Mr. Gaetz. So what I think I hear you saying is that it is 
truly not the contractor's fault. There is a bureaucratic issue 
at JPO that we are working through to fix, and that with the 
new appropriation--you know, with our new cap [budget caps] 
deal, that this is a solvable problem, that we won't be here, 
you know, 12 months from now, wondering why we are approaching 
the time where we can't graduate pilots.
    General Harris. Sir, the problem is solvable. I am not sure 
it is a bureaucratic JPO issue. It was probably more of a 
misunderstanding for the company doing contract maintenance to 
think they had the ability to go in and make changes from what 
an airman or a supervisor put out.
    Mr. Gaetz. Thank you, Mr. Chairman. I yield back.
    Mr. Turner. Mr. Bacon.
    Mr. Bacon. Well, I thank you gentlemen for being here. It 
is a very important topic, is going to make a big impact on our 
country for decades to come. I have a couple questions for 
Admiral Winter and then one for General Harris.
    When I retired out of the Air Force I was working in the 
mission data files, and it was a hard problem. Of course, that 
was in 2014, so we have hopefully progressed 3 years and made a 
lot of progress.
    I understand that the U.S. Reprogramming Lab has the lead, 
they are making some great strides.
    One of the concerning things is those mission data files 
that sort of run the whole--you know, it is like the brains of 
the F-35. The earlier mission data files are not compatible 
with what we are using in the F-35. Have we created a standard 
that we are going to be using for the future F-35s and future, 
you know, fifth-generation and sixth-generation aircraft? 
Hopefully, we don't have to recreate the wheel again like we 
have done here.
    Admiral Winter. Mr. Congressman, thanks for that question 
because the mission data file is that intelligence brain that, 
when in the aircraft and the aircraft is operating and the 
advance sensors start to sense and bring that information in, 
the mission data file presents and provides that cross-check, 
presents that information to the pilot on the panoramic cockpit 
display.
    My first introduction to the mission data file is a--it is 
a series of hundreds--in some cases, thousands of files. It is 
not a single file. The tool suite that the 513th, as well as 
our government software engineers use are an engineering 
developmental tool suite that was used in the early 2000s. That 
is another causal factor. And we were doing unique mission data 
file architectures for each type of aircraft configuration.
    We have learned all of those lessons. And so today we have 
put a standard framework for the mission data file. However, we 
still need to generate a new data file when a configuration 
changes. And those configurations are like going from 3I to 3F, 
adding additional sensors. We have to get over that, as well.
    And so, we have brought in the defense digital science 
team, we have brought in the Air Force digital science folks to 
provide us insights on better ways to re-architect the mission 
data file format going into the future. Thank you, sir.
    Mr. Bacon. Thank you very much. Now, I am a RC-135 guy 
from--you know, going way back, three tours at Offut [Air Force 
Base], four times in the 55th Wing. So the F-35 has a great 
sensor package on there. In fact, I remember always using the 
words ``exquisite sensor package.''
    What concerns me, though, is we are--I think we are still 
trying to figure out how do we get that data off the airplane.
    So, two things. When we land, we should be able to have 
that storage capability so we can go back and debrief and 
figure out where all the threats are at, so that the follow-on 
packages can get that data and be better prepared, or, you 
know, to get the mission done. But even more optimally is a 
real-time intelligence feed off the airplane. Where are we at 
with both when we land to get the data off, or also, follow-on, 
getting that data off real-time while we are airborne?
    Admiral Winter. Again, sir, excellent question. After 
landing and bringing out the PMD [portable memory device], 
which is the data cartridge, we had initially an older 
generation of data recorder transfer that was just completely 
unacceptable. It was 1 to 15, 1 to 20. We are now on the third 
generation and have designed the fourth generation. That is now 
near real-time.
    And so that is good. But even in downloading that, our 
debrief mission planning systems are not up to snuff, and so we 
need to work on that, along with that integration to ALIS, so 
that all of that data can then provide the health and status 
and prognostic look-ahead for that individual aircraft.
    As far as real-time airborne engagement and data 
collection, sensor collection, and then being able to process 
that, we now--right now we can share that amongst other F-35s 
that are on the same configuration. So that real-time 
communication and sharing does occur. And from other Link 16 
communication data links, we can share it with other fourth-
generation--certain data with certain fourth-generation 
aircraft----
    Mr. Bacon. So we can get it back to the AOC [air operations 
center], is what you are saying, eventually?
    Admiral Winter. Eventually, yes, sir. So the thing is it is 
not at the level of flexibility that we need to get to, that we 
are planning to have it to, as we get into the Block 4 
capabilities, which are part of those modernization and 
enhancements to the system.
    Mr. Bacon. I won't be able to get my other question in, I 
am running out of time, but I just think that that offers a 
real decisive advantage, getting this data off real-time, back 
to the AOC, see where the SA-20s [Russian-made surface-to-air 
missile systems] are at, or the airborne threats are at, and be 
able to respond and plan while those F-35s are still airborne. 
I just see a huge advantage there. And so, hopefully, we can 
exploit that.
    And with that I yield back.
    Mr. Turner. Chairman Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. And thank you for your 
communication with my staff, as well.
    Gentlemen, I appreciate all of you being here today.
    And Admiral Winter, I also appreciate you, in your recent 
tour of Hill Air Force Base with the Air Force basing team. 
Obviously, I think I am justifiably proud of that base, and 
what the 388th is doing, and what they have done over in 
Europe, and what the 34th Squadron is doing in the Pacific 
right now, as well as the depot work that is taking place there 
to maintain that aircraft.
    As you go forward with--you know, with the HPSI [Hybrid 
Product Support Integrator]--for whatever that acronym means; I 
can't keep up with them, anyway--I was just wondering. As you 
come up with your assessment criteria, will like real-time 
collocation of operational and maintenance expertise be one of 
the factors that will be considered?
    Admiral Winter. Congressman Bishop, thank you for that 
question. And also, I was very impressed with my first visit to 
Hill, and not only from the operational perspective and the 
depot, but the software sustainment footprint that is there.
    On your question about the Hybrid Product Support 
Integrator----
    Mr. Bishop. You got it, good for you.
    Admiral Winter [continuing]. HPSI--if we can't pronounce 
your acronym, it is not a good acronym.
    [Laughter.]
    Admiral Winter. The current HPSI team is located here at--
in Crystal City, and operating and doing the work of the HPSI. 
We are using the United States Air Force strategic basing 
process through the Secretary of the Air Force. The criterion 
that was laid out was to maximize and leverage off of 
intellectual capital of government acquisition professionals 
and operational professionals in the geo-located area.
    Will there be additional credit or discriminators between 
having sustainment and acquisition and operational? They are 
both two separate on the criterion list, as well as other areas 
in the criterion.
    I know that Hill is one of our candidates, and that process 
for final selection is working its way to--in the April 
timeframe to Secretary Wilson.
    Mr. Bishop. I appreciate that. If I could just follow with 
one other, too.
    You know there was a recent GAO report that talked about 
repair time. And I was wondering if you are--have implemented 
any new initiatives or what--and/or what can Congress do to 
assist in making sure that those repairs are being done in a 
timely fashion to keep us at least on pace with the Chinese and 
the Russian fifth-generation aircrafts?
    Admiral Winter. Again, Congressman Bishop, great question. 
And this committee has already leaned forward in supporting 
spare parts, as well as ensuring the funding for our organic 
depot stand-up, which is our number one effort in standing up 
from 23 repair lines to 68 repair lines to more rapidly--well, 
increase the repair capacity, but rapidly deliver the repaired 
part back to our warfighter. And that is underway right now. 
And the ramp-up of that is being funded. That is our first and 
foremost effort. So that action is underway right now.
    We are also engaging with the industry partners that have 
that repair capacity, to ensure that their throughput goes, so 
that our warfighters have repaired spare parts on the flight 
line.
    Mr. Bishop. Thank you.
    Mr. Chairman, I will yield back.
    Mr. Turner. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, thanks 
much for joining us today.
    Lieutenant General Rudder, I wanted to begin with you and 
ask you, as the Marine Corps deals with having two versions of 
F-35, both the F-35 Bravo and the F-35C, is the mix of aircraft 
for the Marine Corps optimal in order for you to achieve the 
goals in the National Defense Strategy?
    General Rudder. Thank you, Congressman. It is. The--
currently, with the F-35B, those aircraft will serve in two 
roles. They will be deployable on the amphibious big decks, but 
we will also use them for our shore-based commitments right 
now.
    If you look at where we are today, we have got an F-18 
squadron shore-based in CENTCOM, we have got an F-18 squadron 
shore-based in PACOM [U.S. Pacific Command]. We have got a 
carrier deployment, and then we have got all our new 
deployments that are roaming about. This aircraft will do all 
of those, to include the F-35Cs, which will integrate in with 
the carrier deployments.
    So currently, those aircraft, as we look to distribute them 
around the world and fulfill our distributed operations, our 
expeditionary air base operations concepts, on being able to 
use smaller airfields and different distributed--in a 
distributed STOVL [short take-off/vertical landing] manner, I 
think it fits perfectly in the lethality part of the National 
Defense Strategy.
    Mr. Wittman. Very good. I want to ask you a little bit 
about software upgrades. We know that the Marine Corps declared 
for
F-35B IOC [initial operational capability] with Block 2B. And 
the Air Force declared IOC for F-35C with Block 3I. We know the 
difference between them is integrated core processor, so there 
is some hardware differences there.
    As we look at where Block 3I is today, we know that 85 
percent of the code necessary for full combat capability today 
is flying. We know that Block 3F is soon going to be before us. 
We know it is going to be soon, but we know that it is not 
going to be operationalized on a number of aircraft for a 
significant period of time.
    Give me your perspective on the importance of a software 
element of the hardware of these aircraft, not only what it 
brings in capability, but what about the timeliness of having 
that for your aircraft, and the missions that you are needing 
to perform as part of the Marine Corps direction.
    General Rudder. We have--we are going to prioritize, 
obviously, our forward deployers to get the 3F drops. And we 
will also prioritize those that are in the continental United 
States that are next deployed for those 3I drops. We are still 
receiving. As a matter of fact, we just received our first lot 
10, which is a production 3F aircraft, just the other day. Now 
it is at Pax River doing some testing. So it is very important.
    One, this 3F drop, first and foremost, will give us better 
reliability, just--it is a more stable software, less fault 
codes.
    Two, it gives us the full G and full air speed right off 
the bat. And also, for the Marine Corps, what it does is it 
allows us--and for all the services--a lot less to do external 
stores and our gun pod.
    So at some point within whatever scenario you may want to 
dictate, we will have been able to strip down, mostly under the 
great command of the great Air Force, to be able to integrate 
part of that, to strip down any air defense systems, and then 
we are going to put the F-35B into a [inaudible] formation and 
do close air support with us or aerial interdiction.
    Back to--so that is the goodness of it, and there is some 
other things that go along with that, as far as some tactical 
pieces of that, as far as being able to push data links a 
little better and quicker.
    For upgrading our other aircraft, we are funding and 
advocating and working with the JPO to make sure that our TR-1 
jets are upgraded to TR-2. And we hope to have our fleet jets 
that are out there upgraded by next summer. So we should 
hopefully, by next summer, have all 3F configured out in the 
fleet. And then we will begin to work on our training squadron.
    Mr. Wittman. Got you. Very good.
    General Harris, give me your perspective, too. As we talked 
about, the Air Force went to IOC with the 3I, with Block 3I, 3F 
becoming available. Give me your perspective on the importance 
of 3F, the importance of the capability that the aircraft has 
with that software upgrade, and where you see it being needed 
by the Air Force to achieve their missions.
    General Harris. Thank you, Congressman Wittman. The benefit 
is the Air Force is now flying with 3F inter-operational 
squadron.
    Mr. Wittman. Good, good.
    General Harris. We did the upgrade for the aircraft 
currently deployed. They left as 3I and are now 3F at deployed 
location, and we are working through the rest of them at Hill.
    It is not night and day, it is an awesome improvement in 
many ways to provide aircraft stability. The fault rates are 
down and the software itself is making better use of the 
sensors that are onboard the airplane. Because you know it is 
just a software upgrade----
    Mr. Wittman. Yes.
    General Harris [continuing]. But it is all working better 
now. So 3F is the airplane the aircrew and the maintainers 
really were looking for.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Turner. Thank you. We are going to go for a couple of 
additional questions.
    Admiral Winter, I work with our NATO [North Atlantic Treaty 
Organization] partners and dual-capable aircraft [DCA] for--are 
incredibly important for our ability to continue the NATO 
nuclear mission. Your budget request currently includes $770.4 
million for the development of dual-capable aircraft and $984 
million for Block 4 C2D2. In your prepared remarks you 
mentioned that the program will leverage a minimum essential 
infrastructure for the development, integration, certification, 
and testing of the DCA capability.
    Would reductions to the $984 million request for Block 4 
affect the infrastructure necessary for developing dual-capable 
aircraft capabilities?
    Admiral Winter. Mr. Chairman, the--your direction in the 
NDAA--previous NDAA that gave us programmatic direction to 
ensure that the DCA development and delivery was not impeded by 
or tied to the Block 4 software development, and so we are 
following that direction. And the infrastructure and specifics 
are the development test flight aircraft and the laboratories 
that we need to bring the F-35 software in, along with the 
munition software to do that integration.
    The $984 million request in FY 2019 funds predominantly the 
Block 4 software for the F-35, the TR-3 continued development 
and integration efforts, and then the rightsizing of our 
developmental test aircraft and test fleet.
    If there is a mark to that $984, there is a graduating 
impact to that element. But the DCA and the $77 million that we 
have budgeted for DCA will continue to do the design work post-
PDR [preliminary design review] to CDR [critical design review] 
for DCA. And the infrastructure will be there to allow us to do 
that.
    Mr. Turner. Niki Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    Admiral Winter, in a recent Inside the Navy story you were 
reported to have said that the Block 3F deficiency database 
contains roughly 200 deficiencies related to mission planning, 
ALIS, and the aircraft.
    You also reported said that you would not ``pay twice'' for 
fixing these issues during the follow-on C2D2 upgrade effort.
    So, first of all, can you provide more deals--more details 
about those 200 deficiencies?
    Admiral Winter. Yes, ma'am. And those deficiencies captured 
the entire--or the timeframe from 2001 to now. Most of them 
have been resolved. But those are remaining deficiencies 
against the fielded capability. And in that, the performance 
level of that capability, it is not the capability is not 
there, but the performance of that capability.
    We have little ``pippers'' in the display. They may be 
slightly jittery or a refresh rate of a display, which we will 
go fix. But to go fix that would delay delivery of the 
capability. We take those types of decisions to what we call a 
configuration steering board, and they are chaired by me, and 
they are populated by the U.S. Marine Corps, U.S. Navy, and the 
U.S. Air Force warfighter, and they give me direction to say, 
``You have to fix that right now'' or ``That can be fixed 
later.''
    And so those are things in the simulator, in ALIS, in the 
MDF, and in the aircraft. Those 200 DRs, deficiency reports, 
that are remaining right now have gone through that process, 
and they are still being tracked, and they will be resolved as 
we go forward.
    But our industry partner was on contract to deliver Block 
3F capability with no deficiencies. So what we are doing is we 
are holding what we call a consideration summit, where we bring 
not just those DRs, ma'am, but there are other contractual, 
non-deliverable items that our industry partners have not 
provided. And so we will sit down and we will have a discussion 
on the like-kind feedback and like-kind resourcing, because, as 
I go forward with Block 4 and I am doing the modification and 
enhancement, I am going to be fixing some of those display--it 
is just the right thing to do. But I don't want to pay that, 
because it was--should have been fixed before we delivered. So 
that is the idea of how we will get that consideration 
adjudication, and not pay twice.
    Ms. Tsongas. So when you say consideration summit, you are 
talking about who pays for it.
    Admiral Winter. Correct. Yes, ma'am.
    Ms. Tsongas. Great, thank you. I yield back.
    Mr. Turner. Gentlemen, any closing remarks? Anything you 
would like to add that we have not gotten to? I think you have 
had a pretty good breadth of the committee's concerns. Any 
questions?
    General Rudder. Just an overall thanks for what you have 
done with the budget last year, and certainly the budget this 
year. I mean it--back to the original point was we are now able 
to fully fund these readiness accounts to get this airplane 
where it needs to be, plus ramp up production. So I thank you 
for the committee and to the----
    Mr. Turner. I appreciate that. Hopefully in the next 
several years we won't have the battle over top line that we 
have had over the past, and we can talk about how we reach new 
capabilities, as opposed to just the degrading of our 
readiness. So I appreciate that comment.
    With that, we will be adjourned.
    [Whereupon, at 3:37 p.m., the subcommittee was adjourned.]

    
=======================================================================

                            A P P E N D I X

                             March 7, 2018

     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 7, 2018

=======================================================================

      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 7, 2018

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. GAETZ

    General Harris. We have made progress on this issue but some work 
remains. As of Dec 2017, contractor site leads ended the practice of 
adjusting aircraft status reporting at the base level. While status is 
no longer being changed, for contractual purposes, there is a 
reconciliation process that still happens monthly behind the scenes. 
The status reported by the uniformed personnel at the base level is the 
status reflected at the F-35 Operations Center and is also the status 
used to report our force readiness. However, there is a monthly 
contractual reconciliation process towards the award of Performance 
Incentive Fees. The F-35 Joint Program Office (JPO) Performance 
Management Team, in concert with the contractor, Services and Partners, 
review performance metrics for reconciliation. The JPO has final say of 
the reconciled metrics. The process provides credit to the prime 
contractor and commonly results in an 8-10% increase in Air Vehicle 
Availability for the reporting period. The primary difference in 
aircraft reporting status between the USAF and the contract is the 
distinction between airworthiness (Air Vehicle Availability) and 
mission capability. The contract is tied to Air Vehicle Availability, 
so the reporting is focused on airworthiness of the aircraft to fly 
(safely). The USAF uses a Minimum Essential Function List (MEFL) to 
determine the appropriate aircraft condition status to ensure mission 
capability and readiness of aircraft. In some cases, an aircraft will 
remain airworthy, but not capable of performing all assigned missions; 
for example, due to the lack of an electronic warfare component. The 
USAF is working closely with the Joint Program Office to resolve the 
mission capability vs. airworthiness differences for contractor 
performance. To that end, starting with the FY18 sustainment contract 
baseline, the program is pursuing a Performance Based Logistics (PBL) 
approach for future sustainment contracts.   [See page 24.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 7, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. When do you believe the program will be ready to begin 
IOT&E, what are the risks to this start date, and are there any 
mitigations you are considering?
    Admiral Winter. Initial Operational Test and Evaluation (IOT &E) 
will begin when the Defense Acquisition Executive certifies that the F-
35 Air System meets the readiness criteria for IOT&E and the Director, 
Operational Test and Evaluation (DOT&E) approves the test plan as 
adequate, all in consultation with the F-35 Joint Program Office (JPO) 
and the Joint Strike Fighter Operational Test Team (JOTT). The JPO will 
provide the appropriate resources to enable the JOTT to execute 
Operational Test. The formal IOT&E start date will be criteria-driven, 
but is anticipated in the fall of 2018. Risk reduction for IOT&E 
includes execution of pre-IOT&E activities, to move testing that is 
ready forward while awaiting for full readiness criteria to be met. The 
first of these activities, cold weather testing, took place at Eielson 
AFB, Alaska in January of this year.
    Mr. Turner. Last year you gave us some information regarding 
progress on software stability, but you had not yet delivered a 
software build with full warfighting capability. Can you update us on 
the latest software capability as well as provide any updates on the 
previous stability issue?
    Admiral Winter. In August 2017, the F-35 Joint Program Office (JPO) 
delivered software known as 3FP6.2, which provided Block 3F capability 
to the Warfighter. Regarding stability, whereas last year the JPO 
reported that we were experiencing a stability event approximately once 
every 25 flight hours, we are now observing a stability event only once 
every 90 hours on that build. Your subcommittee may have heard reports 
that there are a number of outstanding deficiencies against the 3F 
capability. The JPO wants to be clear that the currently delivered 3F 
software contains all Block 3F warfighting capability, but it can 
continue to be improved. The JPO continues to correct deficiencies 
against the 3F capability while simultaneously moving forward into 
modernization under a construct of Continuous Capability Development 
and Delivery. The currently planned software cadence delivers a 
production candidate software build to the Integrated Test Force every 
six months. These builds contain modernizations, enhancements, and 
improvements to the currently fielded software. Early builds of the 
next production ready software release are already in flight test, and 
the production candidate itself will be delivered to the Integrated 
Test Force in April. In light of the recent National Defense 
Authorization Act language promoting Agile software development, it is 
worth noting that we are working with our industry partners to 
transition to an agile acquisition model, to include Agile software 
development. We kicked off our first Agile pilot program with Lockheed 
Martin in February, and we will begin to prototype agile capability 
development methodologies (as they apply to our integrated hardware/
software system) throughout the summer. In parallel, we are updating 
our Systems Engineering processes and Governance processes to be more 
responsive to Warfighter needs. This supports our National Defense 
Strategy imperative to ``deliver performance at the speed of 
relevance.''
    Mr. Turner. We understand that Block 3F capability in the Training 
System is slated for delivery this year. Is that delivery on schedule?
    Admiral Winter. In order to mitigate the risk of late delivery of 
Block 3F capability to the Training System, we have worked with our 
industry partner to deliver Block 3F training capability in two 
incremental releases. This strategy will enable us to deliver the 
majority of 3F capability sooner than waiting to deliver full 
capability in a single release. Development of the initial increment 
was completed in February and will be retrofit across the enterprise 
between March and June. Development of the full 3F capability release 
is scheduled for completion in August, and will be delivered across the 
enterprise between September 2018 and August 2019.
    Mr. Turner. This committee understands that the F-35 program is 
dealing with a level of concurrency no other acquisition program has 
dealt with in the past. This means a large number of Low Rate Initial 
Production Aircraft require retrofits to maintain pace with production 
baselines. What steps has the JPO taken to control and mitigate the 
complexity of retrofits?
    Admiral Winter. Retrofitting the fleet and keeping pace with the 
production baseline of capabilities and also correcting deficiencies, 
is, indeed, a challenge. We have a team of acquisition and sustainment 
professionals who focus on managing the concurrency retrofits within 
the program. Both the contractor and our JPO team work proactively to 
identify, mitigate, and execute retrofits to the fleets. We 
continuously work directly with each Service, Partner, and Foreign 
Military Sales customer ensuring that retrofits for their fleets are 
planned, budgeted, scheduled, and executed in order to meet each 
customer's critical milestones. We continue to streamline our contracts 
and business processes to reduce administrative lead time and costs. 
Our team works closely with the Service Depots regarding current and 
future workloads, dock space, and personnel. We are forecasting our 
modification and retrofits schedule five years into the future which 
equates to known workloads for more robust and fiscally responsible 
planning. With the close of System Development and Demonstration and 
completion of Initial Operational Test and Evaluation, discoveries will 
decrease allowing the Low Rate Initial Production fleets to be 
retrofitted to the full suite of 3F capabilities.
    Mr. Turner. The F-35B brings new capabilities and operational 
possibilities to the Marine Expeditionary Unit and you have discussed 
the vision of linking Marine Expeditionary Units (MEUs) more closely 
into the joint force. However, those new capabilities and operating 
concepts require investment in shipboard infrastructure to include 
upgraded data links. Please discuss your vision for L-class ship 
connectivity and current plans to achieve that vision.
    General Rudder. Our L-Class ships are behind where we would like to 
be, but the Navy is in full support and we are improving those ships as 
fast as possible. Three of our L-Class big decks now have the new 
Capstone Ship Self Defense System (SSDS) which brings the Cooperative 
Engagement Capability and Link 16 to the platform. There are 5 LHD's 
which are scheduled to be upgraded over the next 5 years. This system 
provides a critical combat capability which will integrated with F-35 
over Link 16. The Navy just installed a system called Radiant Mercury 
on the USS WASP, which enables post flight data from the F-35 to be 
sanitized and convert data to a generic secret level. This will lead to 
a much smoother dissemination of information to battle field commanders 
and leadership for expeditious debrief, validation, or follow on 
operations. We also plan on operating the Marine Corps Common Aviation 
Command and Control System (CAC2S) on the Essex. This is a new 
capability being used by USMC tactical air defense controllers and air 
control electronics operators. It integrates information from various 
aerial and ground-based radar systems and sensors to enable a common, 
real-time tactical picture. This system will bring a Marine Corps 
Command and Control capability to the ship that can seamlessly 
integrate with the F-35, allowing the F-35 to transfer real time data 
from onboard systems and data links back to the ship. Effectively the 
aircraft now becomes a forward sensor for the command elements embarked 
on MEU/ARGs bringing greater situational awareness and faster decision 
making. With the embarkation of F-35s on L-Class ships, one major 
change to the ships were the designation of special access program 
facilities (SAP-Fs). These rooms of elevated classification allow for 
F-35 operational planning on classified F-35 systems. The SAP-F spaces 
modernize facilities on the ship, elevate the classification and 
capability of rooms for F-35 planning or other Special Access Program 
enablers, and introduce new connectivity in spaces where that ATO did 
not exist before, overall enabling warfighter operations overall.
    Mr. Turner. The F-35 program has seen its share of delays over the 
last two decades. After reading your written statement, we understand 
the threshold and objective dates for F-35C IOC are at risk due to 
delays in the IOT&E schedule. The committee understands from previous 
testimony that IOC is not driven by schedule; rather, IOC for the Navy 
is an ``event-driven'' milestone. Can you please clarify for this 
committee the Navy's roadmap to IOC, when it might be declared, and the 
path to the first operational deployment for the F-35C?
    Admiral Conn. For the Navy, IOC continues to be a capability and 
event-driven milestone--the capability being demonstration of 3F in 
IOT&E. The threshold and objective dates are at risk due to delay in 
the IOT&E schedule. Once 3F capability is demonstrated in IOT&E, and 
all other IOC criteria have been met, the Navy will declare the F-35C 
has achieved Initial Operational Capability.
    In the meantime, VFA-147 is already training in the F-35C and is 
expected to be designated ``safe for flight'' with their compliment of 
aircraft in October 2018. Ship and shore infrastructure to support F-
35C qualifications, training and operations are on track to support the 
IOC objective date. And security measures, both ashore and embarked, 
will be complete before the end of the year. The Navy is working 
closely with the JSF Operational Test Team, the USAF and VX-9 to 
determine when the aircraft will satisfy the mission requirements 
defined in the Block 3F Operational Requirements Document. Despite the 
IOC threshold and objective date risk, the F-35C remains on path and on 
schedule to support its first operational deployment in 2021.
    Mr. Turner. What is the service's plan and expected costs to 
retrofit early Low-Rate Initial Procurement (LRIP) aircraft to Block 
3F?
    General Harris. The services requested a plan from the Joint 
Program Office in Fall 2017 to upgrade early Low-Rate Initial 
Procurement (LRIP) aircraft to the 3F configuration. This upgrade is a 
priority for the Air Force and will begin at the end of this calendar 
year. These upgrades will ensure that the early LRIP aircraft are fully 
modified to a more sustainable configuration. The cost of the upgrade 
will vary depending on the LRIP Lot. This upgrade will allow all F-35s 
access to a deeper parts pool and provide greater reliability.
    Mr. Turner. There have been press reports concerning the Fifth 
Generation Fighters (F-22, F-35) challenges in regards to communicating 
and passing targeting data between each other in a denied environment. 
What steps has the USAF taken to fix this shortfall?
    General Harris. The USAF fielded the Battlefield Airborne 
Communications Node (BACN) gateway in 2009 and has included BACN 
program sustainment funding in the FY19-23 POM. BACN effectively and 
securely translates communications between 5th generation (F-22, F-35) 
and 4th generation aircraft and other airborne and ground-based 
stations.
    The USAF has plans to equip F-22 aircraft with Link-16 transmit 
capability in the near future. Since F-35 already integrates Link-16, 
this F-22 upgrade will provide these aircraft the ability to share 
targeting data and support each other in a denied environment. By FY23, 
all fifth gen aircraft will have the ability to fully participate 
(transmit and receive) in the Link-16 network.
    Mr. Turner. Does the Air Force have the ability to pass threat and 
targeting data between Fifth Generation Fighters (F-22, F-35) and 
Fourth Generation Fighters (F-15, F-16, F/A-18) in an A2AD environment 
without being detected?
    General Harris. Yes--the USAF fielded the Battlefield Airborne 
Communications Node (BACN) gateway in 2009 and has included BACN 
program sustainment funding in the FY19-23 POM. BACN effectively and 
securely translates communications between 5th generation (F-22, F-35) 
and 4th generation aircraft and other airborne and ground-based 
stations.
    The USAF has plans to equip F-22 aircraft with Link-16 transmit 
capability in the near future. Since F-35 already integrates Link-16, 
this F-22 upgrade will provide these aircraft the ability to share 
targeting data and support each other in a denied environment. By FY23, 
all fifth gen aircraft will have the ability to fully participate 
(transmit and receive) in the Link-16 network.
    Mr. Turner. The committee understands the USAF has a roadmap to 
develop and field an advanced tactical data link in the 2030 timeframe. 
However, the need for a common solution for interoperability between 
Fifth to Fifth and Fourth to Fifth Generation fighters is a clear 
demand signal from the Combatant Commands now. In addition, the USAF is 
pursuing constructs to achieve a multi domain command and control 
capability and has noted that ``agile communications'' is the 
foundational piece to achieve this goal. Over the past five years, 
several live-fly and Joint demonstrations in operationally relevant 
environments have shown that technologies exist that are mature, 
effective and programmatically feasible against current and future 
threats.
    How is the Air Force pursuing and satisfying this urgent 
communications need?
    General Harris. Currently, that need is met primarily by the 
Battlefield Airborne Communications Node (BACN) gateway that was 
fielded in 2009. BACN effectively and securely translates 
communications between 5th and 4th generation aircraft and other 
airborne and ground-based stations. On 21 November 2017.
    Long-term, the USAF continues moving towards a Combat Cloud 
Operating Concept; an overarching meshed network for multi-domain data 
distribution and info sharing that is transparent to platform/user. The 
5th-to-4th generation gateway performs an incremental approach for 
Combat Cloud concepts (National Technical Means, Common Tactical 
Picture, Resiliency, Coalition sharing). 5th-to-4th generation gateway 
program requirements refinement are on-going and aligned with a ``4 
Pillar'' approach:
    1.  Near-term 5th-to-4th (BACN; F-22 Link 16 transmit)
    2.  Robust Link 16 Comms; Link 16 is the backbone of on-going and 
future networking solutions
    3.  Open Radio Architecture
    4.  Experimentation and Limited fielding
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. In the annual DOTE report, it pointed out significant 
problems with the 25mm cannon on the F-35A. Specifically it cited 
``uncharacterized bias toward long and right of the target'' and that 
the ``gunsight display . . . was cluttered and slow to stabilize.'' For 
the F-35B and F-35C, the report said that testing with the gun pod was 
going better than on the F-35A, but that there were issues of concern. 
What is the status of the F-35A's cannon as of today? When will we know 
the 3F version of the aircraft has an effective gun? What is the status 
of the F-35B and F-35C gun pod?
    Admiral Winter. Testing indicated bias in the F-35A gun at the time 
the Director, Operational Test and Evaluation report was drafted 
(2017). Since that time, corrections were made to the F-35 gun aiming 
software. These corrections were tested and found to correct much of 
the observed bias. Ongoing operational testing continues to fully 
evaluate gun characteristics. The F-35 B and C gun pods are performing 
with the predicted levels of accuracy and lethality. The performance is 
currently being reviewed by the Department of the Navy for fleet usage 
beginning in May 2018.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MS. ROSEN
    Ms. Rosen. In the March 7th hearing held by the full House Armed 
Services Committee on defense acquisition reform, there was discussion 
of being ``outgunned'' in program negotiations--making note of the F-
35's expensive program history--by experienced industry lawyers with 
vast amounts of resources and time spent negotiating long-term 
government contracts. How do we augment the expertise of DOD's 
negotiators when changes in duty station take them to and from the 
negotiating table every few years, so that they can better compete for 
the Department and the American taxpayer?
    Admiral Winter. The best approach to address negotiation skills in 
Department of Defense (DOD) is to reduce attrition in the civilian 
contracting career field by retooling current retention policies. The 
current policies regarding retention incentives require employees to 
have an offer of employment from an organization outside the Government 
before the DOD offers a retention incentive; however, once a Government 
employee has gone through the entire employment process with a company 
outside the Government and has an employment offer in hand, there is 
little chance of having them remain in the Government. Furthermore, 
current retention agreements are structured for the employee to stay in 
the Government, not necessarily on the program where their skills are 
most needed. To improve the situation, the retention incentives must be 
structured to have the employee remain on the major systems program 
where their experience is required, not anywhere in the Government. 
Retention incentives should be based on the experience and 
contributions of the employee, not on their ability to get a job offer 
outside of the Government. In addition to the required training for the 
contracting career field, the most useful training is obtaining a 
Master in Business Administration (MBA) and Professional Military 
Education (PME). Many employees in the contracting career field pursue 
an MBA on a part time, evening basis. Retention incentives that would 
allow contracting personnel to pursue a full time MBA or PME program, 
in exchange for a commitment to return to the major systems they came 
from in a three year commitment for one year of full time study, would 
also help with retention. Finally, funding has to be made available for 
these incentives and earmarked so they cannot be siphoned off into 
other initiatives. Given the cost of effective retention incentives for 
100 employees, and the current cost of a full time MBA program, $1 
million annually would be required for the F-35 program to implement a 
successful retention program. Retention incentives to reduce attrition 
on the F-35 program in summary: 1) A policy that allows annual 
retention incentives to be paid, as part of performance reviews, 
specifically for retention on the F-35 program, with no requirement for 
a job offer outside the Government. 2) Paid full time MBA and PME 
programs with a three for one time commitment specifically on the F-35 
program. 3) An earmarked budget of $1 million annually to implement a 
contracting personnel retention program on the F-35 program
    Ms. Rosen. We must assume that the baseline is always moving. How 
do we stay on the forefront of the F-35's real time hardware/firmware/
software to be as dynamic and nimble as possible, while maintaining its 
physical and cyber security status?
    Admiral Winter. The F-35 Joint Program Office (JPO) has reassessed 
the planned approach for executing Follow on Modernization, Block 4, 
and determined that it cannot continue as it had during the System 
Development and Demonstration (SDD) phase for the Block 3F capability 
delivery which was a slow, rigid ``big bang'' methodology. The F-35 JPO 
will apply a more rapid and iterative process to field software 
solutions, aligned with enabling hardware upgrades, to keep pace with 
the dynamic threat environment and maintain the viability of the Joint 
and International F-35 fleet. The JPO is establishing an updated 
acquisition strategy based on agile practices called Continuous 
Capability Development and Delivery (C2D2). The C2D2 methodology is 
designed to deliver continuous modernization, enhancements, and 
improvements to the entire F-35 Air System, and deliver Block 4 in 
smaller capability drops to the Warfighter on an expedited timeline. 
This new agile approach to capability development is characterized by 
capability based engineering, agile/automated test, parallel 
development and operational test, flexible contract strategies and new 
cost estimating relationships.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BACON
    Mr. Bacon. The U.S. Reprogramming Lab (USRL) plays a critical role 
in programming the brain of the F-35. The USRL has made great strides 
but I understand that the process of creating new mission data files 
(MDFs) is still very lengthy and manpower intensive. I also understand 
that previous MDFs are not compatible with block software updates for 
the aircraft system baseline, often requiring these MDFs to be 
regenerated.
    Questions: 1) What steps are you taking to provide software tools 
to USRL technicians to speed the MDF analysis and validation process? 
2) What is the objective timeline standard for new MDF creation, when 
do you expect to meet it, and what do you require to get there? 3) What 
steps are you taking to bring the USRF into the F-35 system development 
process earlier to keep us from having to recreate our MDF library 
every time the F-35 aircraft software baseline changes?
    Admiral Winter. The F-35 Joint Program Office (JPO) has 
collaborated with the United States Reprogramming Lab (USRL) 
operational community to document its requirements for next generation 
mission data software tools. The JPO is investigating new technologies 
and techniques from leading commercial software companies in order to 
bring machine-to-machine learning, artificial intelligence, and 
software automation to fulfill the USRL's software tool requirements. 
The USRL with being receiving updates to ist software tools in 2018. In 
2020 it will receive additional software tools in preparation for F-35 
Block 4. The maturation of the tools and processes during this 
timeframe will continue to improve both quality and timeliness of 
delivery. By the end of 2021, the USRL's capabilities will have it well 
positioned to respond to ever-changing threats.
    Mission Data File (MDF) development currently takes 12 to 18 months 
to complete due to significant capability differences between 4th and 
5th generation aircraft and a lack of robust reprogramming software 
tools to facilitate these 5th generation capabilities. The JPO is 
actively addressing these issues and developing new software tools to 
support the reprogramming labs. These new tools will be able to complet 
an MDF in 6 months versus the current 18 months and will be released
    Mr. Bacon. The F-35's on-board sensors provide an asymmetric 
advantage to other F-35s in flight, but I am concerned about the 
ability of the F-35 to share the information it is capable of 
collecting with other users.
    Questions: 1) What capability/capacity does the F-35 Block 3F have 
to store and record information from each of the F-35's active and 
passive sensors?
    2) Does the F-35 Block 3F have a post-mission data recovery 
architecture to allow sensor and mission data to be sanitized and 
passed on to other joint users, U.S. national intelligence agencies and 
international partners?
    3) What are the specific Block 4/C2D2 requirements to record and 
share F-35 sensor data, both inflight and post-mission, and when does 
the program anticipate fielding this capability?
    4) When will the F-35 have to ability to pass targeting information 
to support the following joint force missions: Inflight target cueing 
for Army long-range fires? Inflight target cuing for Navy TLAM strikes? 
Inflight imagery transfers to deployed joint special operations forces? 
Inflight and post mission electronic order of battle (EOB) updates to 
the appropriate national intelligence agencies and integrated broadcast 
services?
    Admiral Winter. F-35 Block 3F has the capability to store and 
record five Synthetic Aperture Radar images from its Radar. In 
addition, fused data (i.e., not raw sensor data) displayed on the 
pilot's left/right panoramic cockpit displays and helmet video is 
recorded.
    Information collected by the F-35's sensors can be shared outside 
the F-35 Air System's architecture; however, this is accomplished by 
the users and is not inherent in the F-35 Air System. The Navy 
developed a unique Radiant Mercury (RM) solution to make limited 
recorded classified information releasable (e.g., weapons shot data). 
This capability is currently unique to the Navy onboard the USS WASP 
for the USMC and was completed outside the F-35 program.
    Block 3F allows imagery to be sent out via variable message format 
and Link-16 in an Eagle Eye format as well as the electronic warfare 
data via Link 16. Block 4 adds a full motion video capability as well 
as the ability to support imagery with associated metadata. Block 4 
will also allow sensor data to be recorded for post-mission analysis. 
Our current plans have this capability completing testing in fall 2021 
and fielding in spring 2022.
    The F-35 is capable of inflight image transfer to other units via 
Link-16 to support target cueing. The F-35 can also utilize variable 
message format combat net radio capability to create mission 
assignments for close air support that include targeting information. 
The F-35 does not have a requirement to transmit a digital Call-For-
Fire (CFF) nor a requirement to be interoperable to the Advanced Field 
Artillery Tactical Data System (AF ATDS), which are needed for seamless 
fully digital capability. The interoperability with the AF ATDS and 
digital CFF are both needed for the Army long-range fire. Additionally, 
the F-35 does not have a requirement to be interoperable directly with 
the Tomahawk Land Attack Missile (TLAM) systems nor does the TLAM have 
onboard capability to accept the Link-16 target cueing message set.
    Mr. Bacon. The 33 FW at Eglin AFB is flying some of the earliest 
model F-35s and is struggling with its AA, MC and S-rates. As we work 
to produce enough trained pilots for the 388 FW at Hill today, and soon 
the 354 FW at Eielson and 48 FW Lakenheath, how does the Air Force and 
JPO propose to improve the F-35 maintenance situation at Eglin?
    Admiral Winter. The F-35 Joint Program Office (JPO) is working in 
concert with U.S. Air Force (USAF) logistics leaders to apply a full 
spectrum of improvements for the Eglin Air Force Base (AFB) maintenance 
team. Maintenance challenges at Eglin AFB are driven by three factors: 
(1) Global Spares Pool maturity is causing delays in repairable assets; 
(2) under-developed technical data available for diagnosing and 
repairing; and (3) aircraft availability is pressured by Eglin's early 
Low Rate Initial Production (LRIP) fleet which require both Technical 
Refresh (TR) 2 hardware and Block 3F software upgrades to improve parts 
and performance to provide relevant pilot training. Each one of these 
areas has specific on-going initiatives to improve aircraft 
availability. To address factor one, our critical spares issues, we are 
accelerating organic depot standups, improving Original Equipment 
Manufacturing capability, and have established a Reliability & 
Maintenance Improvement Program (RMIP) to actively address parts 
availability and reliability. In the interim, we have remodeled Eglin's 
spare part kits and are making inventory adjustments to better match 
its usage requirements. To address factor two, technical data, we will 
expand maintenance group authorities to improve base level maintenance 
capabilities and expand on-site technical assistance. In addition, we 
are conducting a series of ``deep dives'' on the top drivers (supply 
and maintenance) to review technical data, assistance requests, repair 
capacity, and parts backlogs to improve aircraft availability. To 
address factor three, TR 2 hardware and Block 3F upgrade needs, the JPO 
and the USAF have worked to spread out the Eglin Fleet modification 
timeline to provide greater aircraft availability to keep pace with 
pilot training demands. These modifications are critical to bringing 
the aircraft to full envelope capabilities and improve aircraft 
reliability. The upgrades drastically improve Eglin's fleet with more 
reliable parts through established repair lines.
    Mr. Bacon. The 33 FW at Eglin AFB is flying some of the earliest 
model F-35s and is struggling with its AA, MC and S-rates. As we work 
to produce enough trained pilots for the 388 FW at Hill today, and soon 
the 354 FW at Eielson and 48 FW Lakenheath, how does the Air Force and 
JPO propose to improve the F-35 maintenance situation at Eglin?
    General Harris. Key to long-term sustainability at Eglin AFB will 
be to upgrade the Air Force's 2B aircraft to the new 3F configuration. 
The funded upgrade kits will be available at the end of this year. The 
upgraded aircraft will have access to a deeper repair network and 
access to a deeper 3F spares pool. New integrated processors are 
required for the 3F upgrade and their availability drives the upgrade 
timeline.
    In addition to these planned upgrades for Eglin AFB, they will also 
benefit from the larger enterprise efforts underway. Depot standup is 
behind schedule and the Air Force is working with the F-35 Joint 
Program Office (JPO) to remedy the repair cycle deficiencies. In Fiscal 
Year 18 we increased funding for our initial spares purchase and 
invested in our repair network. These investments will result in a 
deeper parts pool and more robust repair capability. The combined 
efforts to build a robust spares pool will take time. We will continue 
to work with the JPO Hybrid Product Support Integrator (HPSI) to 
prioritize parts support to units conducting or preparing for deployed 
combat operations, and identify options to expedite procurement of 
mission critical components.
    In addition to the items above that address the supply side of the 
equation, we're also encouraged by reductions in the demand signal for 
spare parts as well. The enhanced performance and reliability of the 
recent aircraft 3F software update improves internal diagnostics. The 
better fault isolation results in fewer serviceable parts that are 
erroneously introduced into the repair pipeline. Also, reliability and 
maintainability efforts continue to decrease Mean Time Between Failure 
(MTBF) rates resulting in fewer parts needing repair.
    The combination of supply side increases and demand signal 
reductions will result in improved aircraft availability across the 
enterprise, including the 33FW at Eglin AFB.

                                  [all]
</pre></body></html>
